<html>
<title> - [H.A.S.C. No. 114-82] AFGHANISTAN IN 2016: THE EVOLVING SECURITY SITUATION AND U.S. POLICY, STRATEGY, AND POSTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                        [H.A.S.C. No. 114-82]

                   AFGHANISTAN IN 2016: THE EVOLVING

                  SECURITY SITUATION AND U.S. POLICY,

                         STRATEGY, AND POSTURE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 2, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-891                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Campbell, GEN John F., USA, Commander, Operation Resolute 
  Support, U.S. Forces-Afghanistan...............................     3

                                APPENDIX

Prepared Statements:

    Campbell, GEN John F.........................................    52
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Garamendi................................................    71
    Mr. Moulton..................................................    71
    Mr. Wilson...................................................    71











 AFGHANISTAN IN 2016: THE EVOLVING SECURITY SITUATION AND U.S. POLICY, 
                         STRATEGY, AND POSTURE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, February 2, 2016.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets today to hear from our U.S. and NATO 
[North Atlantic Treaty Organization] commander in Afghanistan, 
General John Campbell.
    And, General, first, I would want to thank you for being 
here. You were with this committee in October. And I am not 
sure we expected to see you again so soon, but I understand 
that you will be transitioning out of the Army, and so we 
wanted to take this opportunity to get ourselves updated and 
get your insights on the status in Afghanistan.
    As we do that, I want to express appreciation for your 
service to the country over many distinguished years. And I 
especially want to express my appreciation and admiration for 
the way you have conducted this job in I believe your third 
deployment in Afghanistan.
    It seems to me that you have walked something of a 
tightrope, because it is clear to me that you appreciate the 
importance of Afghanistan to our country's security, as well as 
the investment in lives and treasure that the United States has 
made there over the years. And at the same time, in many ways 
you have had your hands tied by the White House on what you 
could and could not do. It seems in some ways we have a 
contradiction for Afghanistan. It was known as the good war, 
and yet at least some in the White House are unwilling to allow 
the military to take the steps to actually be successful.
    My view is that this is a crucial time in Afghanistan. We 
all read the press reports about the growing presence of ISIS 
[Islamic State of Iraq and Syria]. We read about the Taliban 
being more aggressive, partly because of their internal power 
struggles, I suspect, partly because they are trying to 
position themselves for any peace talks that may come. There 
are some who believe that Al Qaeda is regrouping in the area. 
And there are a number of other groups. And yet, our commitment 
to Afghanistan seems to come a year at a time, which causes 
some question about how reliable a partner we are.
    So I think that the committee and the American people are 
looking forward to an update of the status of the situation 
today in Afghanistan. I think we are all interested in whether 
the Afghans are making progress in developing their military 
and being able to handle their own security needs effectively. 
And I also think we, the committee and American people, 
continue to ask: Why are we still here, 14 years later? Why is 
it important? And so I hope that over the course of the day you 
can help us explore some of the answers to those questions.
    Mr. Smith is not with us this week because of health 
concerns. Let me turn to the gentlelady from California, Ms. 
Sanchez, for any comments she would like to make.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman. I will begin by 
asking unanimous consent to put Mr. Smith's remarks in for the 
record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    Ms. Sanchez. And I would like to make a few comments. First 
of all, to thank General Campbell for your distinguished 
service and for this time now, as the chairman said, the third 
deployment that you have as our commander of our forces there 
in Afghanistan. So thank you, and we wish you luck in your 
future endeavors.
    It is evident that the situation in Afghanistan has become 
more complex as the Taliban continues to provoke instability in 
that country and while ISIL [Islamic State of Iraq and the 
Levant]-affiliated terrorist groups, such as the Islamic State 
in the Khorasan Province, endeavor to gain some influence in 
Afghanistan.
    For the past 14 years, the U.S. has not only fought in 
Afghanistan, but we have funded and we have invested in so many 
areas of Afghanistan's society, and no one can deny the 
progress that we have made in reducing Al Qaeda terrorists in 
Afghanistan. And a lot of that credit goes to, of course, our 
military men and women, but also to our civilian men and women 
who have been in there and the groups who have worked on that 
whole issue of trying to weave together the fabric of society 
for the Afghan people.
    However, when we look at the situation in the Middle East--
and I include Afghanistan, because groups are moving back and 
forth to gain influence or trying to gain influence there--it 
continues to, I think, threaten the United States security and 
our security when we look at sanctuaries, in particular in 
Afghanistan, for some of these terrorist organizations.
    General, last week your successor, Lieutenant General 
Nicholson, stated during his nomination hearing as commander 
that he would continue to pursue counterterrorism and advise 
and assist in capabilities in Afghanistan. We have about 9,800 
troops deployed in Afghanistan right now, and I know that the 
plan is to bring them down to about 5,500 by the end of this 
year.
    So considering all of the evolving threats in the country 
and looking at the progress we have made or the lack of some of 
the progress, for example with Afghan National Defense and 
Security Forces, we are very interested to try to figure out 
and help and glean some understanding from you about what our 
real role will be there, because after 14 years, using your own 
words, General Campbell, an uneven and inconsistent performance 
from the Afghan forces. And considering this advice-and-assist 
capability is a significant part of our strategy in 
Afghanistan, I am concerned that we really still haven't seen 
the signs that if we were effectively to leave, that the Afghan 
forces could really continue to create that stability for that 
country and for its people.
    And I have expressed my concerns over and over on the high 
level of corruption that we have seen in all the Afghan 
governments since we began 14 years ago there. So I am 
interested to hear where that is headed and what you think is 
happening with the whole issue of corruption.
    And with that, I will yield back, Mr. Chairman, and thank 
you.
    The Chairman. Thank you.
    Without objection, General, your full written statement 
will be made a part of the record and you are recognized for 
any comments you would like to make.

 STATEMENT OF GEN JOHN F. CAMPBELL, USA, COMMANDER, OPERATION 
           RESOLUTE SUPPORT, U.S. FORCES-AFGHANISTAN

    General Campbell. Sir, thank you.
    Good morning, Chairman Thornberry, Ms. Sanchez, and other 
distinguished members of this committee. Thank you for the 
opportunity to appear before you today while representing the 
great service men and women of the United States Forces-
Afghanistan. And I have been honored to lead and represent them 
in all that they do for nearly 18 months, and it has truly been 
my honor and privilege to do so.
    I would like to begin by thanking the committee for your 
steadfast support of our soldiers, sailors, airmen, marines, 
and civilians. Due to your leadership and commitment, they 
continue to be the best trained and equipped force our Nation 
has ever deployed. Their remarkable performance bears testimony 
to your backing and the backing of the American people.
    I would also like to recognize the unsung heroes of our 
Nation, and that is our military families. They have stood by 
us for the last 14-plus years of conflict. They endure the 
hardships of our frequent absences and allow us to focus on our 
mission. Without their love and support we couldn't succeed, 
and we thank them for their continued support.
    Finally, I would like to acknowledge and honor the over 
2,200 service men and women who have died since 2001 and the 
over 20,000 who have been wounded. Tragically, we recently lost 
six U.S. airmen to a motorcycle-borne IED [improvised explosive 
device] just before Christmas and a special forces adviser just 
after the New Year. These losses remind us that Afghanistan 
remains a dangerous place. And while we take every measure to 
reduce force protection threats, our service members, 
civilians, and coalition partners remain in harm's way.
    We also remember the fallen of the Afghan security forces 
and the loved ones that they leave behind. They now bear the 
brunt of this conflict as they fight to bring peace and 
security to Afghanistan. Every day we honor their memories by 
assisting our Afghan partners as they fight to improve security 
and by extension to help protect our homeland. Let me say that 
again: help protect our homeland.
    The men and women I serve with have not forgotten why we 
are in Afghanistan. We remain there to ensure that another 
terrorist attack, originating from Afghanistan and directed 
against the U.S. homeland, will never happen again. That is why 
the counterterrorism mission remains critical to our mutual 
security interests.
    Yet we recognize the importance of our train, advise, and 
assist mission as we build a sustainable Afghan security force 
capable of standing alone in its mission of countering violent 
extremists and denying terrorist safe haven. This is a shared 
vital interest among Afghanistan, the United States, and the 
international community.
    Those who serve in this mission understand that Afghanistan 
is worth our investment. It is their commitment that keeps us 
focused on our vision for a stable and secure Afghanistan. 
Together, the train, advise, and assist mission, and the 
efforts there, coupled with our counterterrorism mission, 
underpin overall mission success.
    Just 4 months have passed since I last appeared before this 
committee. Even in that short time there have been many 
developments in the security situation, the progress of the 
Afghan Government and its security forces, our coalition's 
commitment, and of course the U.S. way ahead in 2016 and 
beyond. Today, I will speak to these developments and answer 
questions you may have on the state of our efforts and the 
overall situation in Afghanistan.
    Specifically, I would like to address a lesson we learned 
from last year, how we intend to ensure that 2016 is different 
from 2015, and how we see 2017 and beyond. To assess these 
questions we must ask ourselves: What else can we do to enable 
the Afghan security forces, and what else can the Afghans do 
for themselves to ensure the security of their country?
    2015 was fundamentally different than previous years of our 
campaign. It is important to remember this context as we assess 
our efforts in Afghanistan. First, Afghanistan's government and 
security forces have managed multiple transitions in 2015. 
Second, the U.S. and coalition mission and force structure have 
significantly changed. And third, changing regional dynamics, 
including evolving threats, have presented both challenges and 
opportunities for our success.
    As I travel around Afghanistan, I recognize the changes and 
progress made over the years of this mission. As the chairman 
said, this is my third deployment to Afghanistan over the span 
of the last 14 years, and I have served as a senior commander 
there for the last 18 months. I am ever mindful of how far we 
have come, but I do remain clear-eyed about the challenges that 
lie ahead.
    Now more than ever the United States should not waiver on 
Afghanistan. The crucial investment we are making provides 
dividends that achieve our strategic goals, secure our 
homeland, and position us well in the region, a region that has 
been a source of terrorism and instability for decades.
    Many of you have heard me say that for every bad-news story 
we hear, every bad story coming out of Afghanistan, there are 
10 good-news stories we don't. While this is to be expected, I 
think it tints the view of our progress and prospects for 
success in Afghanistan. Today it is my intent to provide a 
balanced assessment that not only exposes the challenges that 
lie ahead, but also illustrates our gains of the Afghan forces.
    With that in mind, I would like to address the concerns 
over what many feel is an overall declining security situation 
in Afghanistan. The situation is more dynamic than a simple 
yes-or-no answer would adequately address. In fact, as of last 
week, the units we have on the ground throughout the country 
reported that of the 407 district centers, 8 of them, or just 2 
percent, are under insurgent control. Let me say that again. 
Out of the 407 districts, only 8 of them are under insurgent 
control. We assess that another 18, or 4 percent, are under 
what we call insurgent influence.
    Often these district centers are in remote and sparsely 
populated areas that security forces are not able to access 
every day and usually not in force. Additionally, at any given 
time there may be up to 94 district centers, or 23 percent, 
that we view as at risk.
    These figures make two clear points. One, that 
approximately 70 percent of the inhabited parts of Afghanistan 
are either under government influence or government control. 
And number two, the importance of prioritizing Afghan resources 
to ensure that key district centers do not fall into insurgent 
influence or control.
    Over the last 8 years the Afghan security forces have made 
advancements, beginning as an unorganized collection of militia 
and developing into a modern security force with many systems 
and processes of an advanced military. Too many times we try to 
compare the Afghan security forces with the U.S. Army. The U.S. 
Army has been around for 240 years; again, the Afghan army 
about 8 years. They have proven resilient and continue to make 
significant strides in only the second year in which Afghan 
forces assumed the lead for security throughout Afghanistan.
    They have demonstrated the ability to successfully conduct 
effective large-scale, multi-pillar operations across the 
country, including in Helmand, Ghazni, and Nangarhar. Following 
insurgent offensives, the Afghan security forces were able to 
retake key territory, as they did in Kunduz back in October, 
with strong performances from the security pillar.
    Simultaneously, while tactical units were conducting these 
operations, the security institutions had to continue 
developing the force. This includes many complex tasks, such as 
budgeting, force generation, personnel management, national-
level maintenance, logistics, and procurement. These are areas 
that challenge even the most advanced militaries in the world.
    I would like to say that what we have accomplished here is 
akin to building an airplane while in flight. While these 
systems are far from perfect, the foundation has been laid. We 
continue to advise and assist the Afghans as they build a 
sustainable security force that is enduring and capable of 
standing on its own.
    With Afghans in the lead for security for the first time in 
2015, the enemy and the naysayers predicted the collapse of the 
Afghan security forces and the Afghan Government. They sought 
to capitalize on it. Instead, the Afghan security forces fought 
for the very survival of their country and held firm, they did 
not fracture, and they kept the insurgents from achieving their 
strategic goals while inflicting higher casualties on the 
enemy. They did this while maintaining a significantly higher 
operational tempo with significantly reduced coalition support.
    However, the lessons learned in 2015 underscore that Afghan 
shortfalls will persist well beyond 2016. Capability gaps still 
exist in fixed- and rotary-wing aviation, combined arms 
operations, intelligence collection and dissemination, and 
maintenance. More prominently, one of the greatest tactical 
challenges for the Afghan security forces has been overcoming 
the Afghan Air Force's extremely limited organic close air 
support capability. Admittedly, we began building the Afghan 
Air Force late and are constrained by the time it takes to 
build human capital.
    Those capability gaps notwithstanding, I still assess that 
at least 70 percent of the problems facing the Afghan security 
forces result from poor leadership. Minister of Defense 
Stanekzai recognizes this as well. To date, the Afghan National 
Army has replaced 92 general officers, including the 215th 
Corps commander in Helmand. The Ministry of Interior is lagging 
behind in making leadership changes, but we are taking steps to 
remedy this through our train, advise, and assist mission. But 
this kind of change takes time.
    I have seen the consequences of Kunduz and Helmand still 
weigh heavily on the leadership of both the security forces and 
the Afghan Government. They realize that, although not 
strategically significant in a pure military sense, that those 
incidents shape media coverage and undermine the confidence in 
the Afghan Government. Their desire to do better runs deep and 
is genuine. In many ways these events forced a greater sense of 
urgency to make the changes they greatly require.
    Over the last year there have been many positive trends. 
However, Afghan security forces have not consolidated 
significant gains of their own, nor defeated the insurgency 
across Afghanistan. And suffice it to say, their performance 
this year was uneven. To be fair, this was not unexpected given 
the overall conditions.
    Ultimately, Afghanistan has not achieved an enduring level 
of security and stability that justifies a reduction in our 
support in 2016. That is why the President's decision to 
maintain current force levels through most of 2016 was welcome 
and important. This decision set the example for NATO, 
encouraging other allies and partner nations to maintain or in 
some cases increase their contributions to the Resolute Support 
mission.
    During this winter lull, we are focusing on steps to best 
prepare the Afghan security forces for the summer campaign of 
2016. Their leadership shares this focus, and they are 
dedicated to resetting the force, implementing reforms to 
improve training, equipping, and rebuilding of units that have 
endured unusually high operational tempos for long periods of 
time, especially those forces in Helmand. Such reforms are 
critical and are taking root with the Afghan security forces, 
but broader reforms remain important to the success in 
Afghanistan.
    The Afghan Government, including its security institutions, 
continues to show progress in battling corruption and achieving 
other reforms, such as gender integration. However, much work 
still needs to be done. We fully understand that many want to 
see more progress on social and human rights issues before 
continuing to commit resources to Afghanistan. The national 
unity government also recognizes this and has welcomed our 
increased use of conditionality to usher change. They 
understand the importance of stability, opportunity, and hope--
the hope that inspires people to stay in Afghanistan instead of 
seeking opportunity elsewhere.
    Afghanistan is at an inflection point. I believe if we do 
not make deliberate, measured adjustments, 2016 is at risk of 
being no better and possibly worse than 2015. To place this in 
context, I would like to emphasize the uniqueness of 2015 and 
some dynamics I think we should consider as we assess our way 
ahead.
    The enemy has also changed this year. Unlike previous 
years, the Taliban extended the fighting season and has 
continued to conduct operations in Helmand, as called for by 
the Taliban leadership. Even so, the Taliban recognized they 
have no lasting gains to consolidate from last year. They 
cannot afford to cede the limited ground they do hold. They 
also are coming out of a year that saw a fracturing of their 
organization, competition from among insurgent groups resulting 
in a loss of legitimacy, and high casualty rates, probably 
their highest casualty rates in years.
    As I meet with Afghan soldiers and police, I remind them 
that the Taliban are not 10 feet tall and are not bulletproof. 
They face significant challenges and they can be defeated. This 
fact is often forgotten in prominent media reports. The brief 
notoriety that the Taliban have gained in Kunduz and Helmand is 
still overshadowed by the significant cost of those efforts, 
compounded by the loss of credibility and the unity as enemy 
infighting continues to this day.
    The Taliban's public narrative in Afghanistan is waning 
too. It is not lost on the people of Afghanistan that the 
Taliban are killing Afghans, security forces and innocent 
civilians alike. Recent public information campaigns have also 
been more forceful, stressing to the public that the Taliban, 
they have no plan for the development of Afghanistan, they are 
here to kill you, they are against women, they are against 
education, and they are against progress for the nation of 
Afghanistan.
    As these messages resonate, the government must show that 
it is the only viable option for Afghanistan. At the city, 
district, provincial, and national levels the people of 
Afghanistan see that the return of the Taliban represents a 
return to brutality, criminality, and oppression.
    The operating environment is also evolving for the Taliban 
due to emergence of insurgent and terrorist groups. One such 
group is Daesh in Afghanistan or Islamic State-Khorasan 
Province. Daesh continues to conduct brutal attacks against 
civilians and directly competes with the Taliban for resources 
to establish a foothold in the country. They have focused their 
efforts on establishing a presence in Nangarhar and in 
recruiting in other areas.
    We recently gained the authority to strike Daesh. Since 
then, we have had considerable success in degrading their 
capabilities. The rejection of Daesh by local leaders who are 
working with Afghan security forces has also slowed the enemy's 
progress. The strikes have been effective in mitigating their 
growth. We must maintain constant pressure on Daesh and 
dedicate intelligence resources to prevent strategic surprise.
    The Taliban has had to adjust their strategy this year in 
order to counter the emergence of Daesh and other insurgent 
groups. This dynamic has served as a distraction to the 
Taliban, requiring them to shift precious resources from 
fighting the Afghan security forces to countering opposition 
groups. More than just consuming resources the infighting and 
resultant inability to maintain cohesion also has severely 
damaged the credibility of the Taliban's core narrative of 
being a strong, united organization.
    Groups aligned with the Taliban, such as Al Qaeda and the 
Haqqani Network, continue to threaten our national security 
interests. Al Qaeda has been significantly weakened. But as 
evidenced by the recent discovery of an Al Qaeda camp on 
Afghanistan's southern border, they are certainly not extinct. 
The Haqqani Network remains the most capable threat to the U.S. 
and coalition forces, planning and executing the most violent, 
high-profile attacks in Kabul.
    These are certainly not residual threats that would allow 
for a peaceful transition across Afghanistan. Instead, they are 
persistent threats that are adapting to a changing operational 
environment. Ultimately the threats Afghanistan faces requires 
our sustained attention and forward presence.
    Reconciliation is a path needed to obtain a negotiated 
settlement and end the conflict in Afghanistan. Current 
reconciliation efforts are an Afghan-led, Afghan-owned 
initiative, recently renewed with a quadrilateral meeting in 
mid-January that included Afghanistan, Pakistan, the United 
States, and China.
    It has been over a year since the formation of the national 
unity government. It has faced institutional and political 
difficulties, yet can lay claim to some meaningful reform and 
progress during its first year. The unity government may be 
fragile, but it is holding. Despite being challenged, it is 
making progress and building momentum to create increasingly a 
viable future for the Afghan people. Politically, Afghanistan 
is postured for both progress and a continued strategic 
partnership with the United States.
    We have strong and willing partners in President Ghani and 
CE, Chief Executive, Abdullah. And as all of you know, this has 
not always been the case in our relationship in Afghanistan.
    So as I said at the beginning of this statement, we now ask 
ourselves: What else can we do to enable the Afghan security 
forces and what else can the Afghans do for themselves to 
secure their country? A strategic stalemate without end is not 
the goal of this campaign. Let me say that again. A strategic 
stalemate without end is not the goal of this campaign. Nor is 
it true to the reason we came here over 14 years ago. And our 
men and women on the ground know that.
    In fact, the recently submitted NATO Strategic Assessment 
makes recommendations for adjustments to the current NATO OPLAN 
[operation plan] that, in my best advice, will help push the 
campaign past this inflection point and increase the prospect 
of increasing our shared goals and achieving our shared goals.
    The measures that NATO is considering include advisory 
adjustments to give commanders more flexibility on the ground 
and shifting from a yearly outlook to a 5-year vision to give 
all donor nations, and especially Afghanistan, the confidence 
that comes with predictability of support.
    The United States must consider and must continue to show 
flexibility with our mission in 2016 and beyond. As the 
commander, I am responsible for aligning our national 
objectives with ways and means while managing risk.
    Now that we have been allocated our resources for 2016, I 
am assessing the ways in which we ensure that 2016 is not a 
rerun of 2015. Based on conditions and the performance of the 
Afghan security forces during this winter lull, I am also 
reviewing how well those forces will likely perform in 2017 and 
the United States and coalition resources required for their 
continued development.
    This is all part of a broader process of which my 
assessment is only one part. I will provide my assessments of 
our strategy to my military leadership, as well as my 
successor, Mick Nicholson. I think it is important to remember 
that this time last year our plan was to transition to a 1,000-
troops, Kabul-centric footprint. Due to conditions on the 
ground, the President made the decision to extend 9,800 through 
most of 2016 and increased our posture to 5,500 in 2017. This 
decision provided flexibility to make adjustments and 
represents the kind of conditions-based approach that is so 
important for our mission in Afghanistan.
    The key to this long-term success in the region is the 
resiliency of the Afghan Government and its security 
institutions, and the ability to serve as a regional partner in 
our combined efforts to counter violent extremism. It is 
important to remember that the national unity government 
welcomes our assistance. They are dependable and steadfast 
counterterrorism partners in South Asia.
    2017 marks a significant change in our approach as we focus 
our efforts to capitalize on the gains of the past decade and 
build the capacity of the Afghan security institutions. We now 
have a window of opportunity to increase our likelihood of 
achieving strategic success. Of course our support should not 
be open-ended and I believe our approach is sound. This year we 
will apply greater conditionality to the Afghans in managing 
the resources we give them.
    We are also developing a 5-year vision out to 2020 to help 
better define what we are trying to accomplish and avoid a 
year-to-year mentality. I believe that by changing our and the 
Afghans' mindset from a cyclic ``fighting season to fighting 
season'' view to a really genuine long-term outlook, it really 
best reflects our commitment.
    We need to provide the Afghans the time and space for them 
to continue to build their resiliency and capability. Through 
their spirit and fortitude they have proven worthy of our 
continued support. The actions we take now, combined with their 
resolve to improve, will over time develop a sustainable force 
capable of securing the nation and, in turn, help us secure 
ours.
    Sir, thank you again for having the opportunity and for 
your steadfast support of this campaign. I look forward to your 
questions.
    [The prepared statement of General Campbell can be found in 
the Appendix on page 52.]
    The Chairman. Thank you, sir. And I know that members of 
the committee will have a number of aspects that you mentioned 
that they will want to follow up on.
    Let me just pursue one issue right quick. You made the 
point that one of our key goals is to prevent another terrorism 
attack on the homeland. About a month ago, there was an article 
in The Wall Street Journal that pointed out that 5 years ago 
the U.S. military and its allies operated 852 bases and 
outposts in Afghanistan, many with their own informants, 
drones, and surveillance balloons. Now all but about 20 of them 
are closed. Then it goes on to talk about the Al Qaeda training 
camp that was 30 square miles in southern Kandahar that was a 
complete surprise to us.
    So it just seems to me as a matter of common sense that 
when you go from 852 installations to 20, that it is harder to 
keep up with the enemy and to prevent another attack on our 
homeland. Isn't that true?
    General Campbell. Sir, it is true as we downsize we lose 
sensors, we lose force out in other regions of Afghanistan to 
be able to detect that. The intent, though, is to continue to 
build the Afghan forces so they can take over many of those 
places that we departed, sir.
    The Chairman. Well, I am concerned that we are not giving 
you the resources or the leeway to protect the homeland and 
advise and assist the Afghans to take care of security so that 
we can turn it over to them.
    Let me just ask one other thing. You mentioned that NATO is 
looking at a 5-year vision to replace the ``fighting season to 
fighting season'' and I hope to replace the year-to-year U.S. 
decisionmaking on whether we are going to be there or not. What 
is that decision going to rest on? What is going to decide 
whether NATO has a 5-year approach to Afghanistan versus this 
lurching from a few months to a few months?
    General Campbell. Sir, I think again--and, sir, thanks for 
the question--we approached NATO through the chiefs of defense 
a week or two ago, we talked about Afghanistan as we moved 
toward the Warsaw conference in July of this year, where all 
the nations come together, the donor nations will come together 
and look at providing funding for Afghanistan for 2018, 2019, 
and 2020. So tying Warsaw and the funding that they have to the 
narrative that we have to have a long-term commitment just made 
sense.
    And I think with the donor nations, NATO will continue to 
look at: Are the Afghans getting at what we need them to get 
at? Are their security forces improving? Are they getting after 
corruption? Are they trying to work women into the security 
institutions? Are they going after the insurgents that have 
caused problems in Afghanistan?
    So I think as they see the Afghan security forces continue 
to improve, that gives the donor nations continued hope that 
they will continue to improve, and I do believe they will. But 
as they move towards this 5-year plan, I do think, for the U.S. 
as well, that we have to come to a longer-term plan.
    You know, as early as 2009 when we were surging, we were 
also talking about coming down. And for many of the Afghan 
people and the security forces as I talk to them, they remain 
skeptical that we will continue to be there. We tell them that, 
they know by the decision in October 2015 by President Obama 
that we will have a longer-term commitment. And as you would 
suspect, many of the Afghan security forces want larger 
numbers, they want more resources. They understand they have 
gaps and seams that they need to continue to work on, and they 
see NATO, and especially the United States, as the only ones 
that can really help them get to the level they need to get to.
    But I think if we have a narrative, that we show them that 
we have long-term commitment, not only in the money but in 
people on the ground, in the systems and equipment and the 
training that continue to come into the country, it will build 
more confidence for the Afghan security institutions and for 
the people in Afghanistan.
    The Chairman. Well, I hope the U.S. provides that 
leadership, because it seems to me that the concern that we are 
not going to be there very long has made the job of you and our 
troops more difficult, whether it be counterterrorism or the 
train-and-assist mission.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    General, in Iraq we had left Iraq pretty much and we had 
left a trained-up Iraqi Army and police forces. And over the 
years that we were there, hundreds of thousands of people were 
trained and equipped into those forces over the decade or so 
that we were doing that. And yet, when ISIL came to the battle, 
the Iraqi forces ran, left their weapons and the armaments that 
we had given to them. And we find ourselves in the situation in 
Iraq now fighting a strengthened ISIL and trying to rebuild 
what we thought we had built in Iraq.
    Tell me how Afghanistan differs. Tell me why you think 
those that we are training up will not run or leave the weapons 
behind should there be a strong ISIL-type force that tries to 
take land there for their training camps or whatever their 
desires are. Why would we not expect the same thing to happen 
in Afghanistan if we would withdraw?
    General Campbell. Thank you for the question, ma'am.
    I spent about 19 months in Iraq as well, and I have watched 
the Afghan forces since I was a colonel in 2002-2003, all way 
up to four-star now in 2016. The Afghans are fighters. They 
have a different sense of pride, I think, and nationalism in 
their country. In Iraq it was about Sunni, Shia, Kurd issues. 
In Afghanistan they see themselves, although different tribal 
affiliations, they are one Afghanistan force fighting for their 
country, fighting for their survival.
    So as I talk to the Afghan senior leadership, it is obvious 
to me that they will not do what happened in Iraq based on what 
is coming from their heart from Afghanistan to protect their 
country.
    We continue to work with them. We have had a glide slope 
over the last 3, 4, 5 years, as we have come out of the 
kandaks, the battalion level, the brigades, that we would just 
focus on the ministerial level and on the corps level, and then 
we would do tactical-level TAA--train, advise, assist--at the 
special operating level and we would continue to build those 
forces there.
    So I see a continued commitment by the Afghan forces over 
2015 where they have been on their own, where they have been 
challenged, that they have not dropped their weapons and run. 
The only case--actually two cases--I have been disappointed was 
in Kunduz. There are a lot of other reasons on Kunduz and why 
that happened. And then in Helmand, where there have been some 
isolated district centers where, even though they may have had 
some of the requisite force, they didn't have the right 
leadership that inspired the Afghan soldiers or police to stay 
there and fight. Some of them felt threatened, some of their 
families were threatened, so they left a few of those district 
centers there. So only two cases where I have been 
disappointed.
    But the change is that they have gone back and they fought 
for those, they regrouped. In Kunduz, within a couple of days, 
they retook Kunduz, which is a city of over 300,000. Same thing 
in Helmand. They continue to fight today in the district 
centers. The ones that they have lost they have fought for. So 
I see that change.
    The other difference between Iraq and I think Afghanistan 
is the national unity government. They want us there. President 
Ghani, Dr. Abdullah, the people I deal with in Afghanistan that 
I talk to want the United States, they want NATO. They see us 
as a foundational partner, not only in counterterrorism to 
build their capability so they can fight that in that region, 
but also to continue to build on the rest of their conventional 
army.
    President Ghani, and you all heard him when he was here 
last March when he addressed Congress about how he thanked the 
American people for the sacrifice of their men and women, how 
he thanked the American taxpayers for their continued monetary 
investment in Afghanistan, he and the rest of the government 
know how important we have been. I just don't see Afghanistan 
as Iraq. I don't see the Afghans running. But it is going to 
take continued train, advise, and assist, persistent train, 
advise, and assist in many of those gaps and seams that we said 
would be hard for any military to grow, logistics, 
intelligence, and especially, as I talked before, their close 
air support capability.
    Ms. Sanchez. General, how much longer do you think it will 
take? Because I am looking at the budget numbers and it looks 
like from 2015 to 2017 the U.S. and its NATO allies have 
committed to providing $5.1 billion for the Afghan National 
Defense and Security Force of 352,000 personnel; 4.1 billion of 
those dollars is the responsibility of the United States.
    So given that we have been there for 14 years and we can't 
leave yet, how many 4.1 billion times are we going to do this 
before we can figure out that we can get out? I mean, I know we 
have tried all sorts of strategies. We went in initially 
because the Taliban had given lands in whatever way for Al 
Qaeda to train to come after us in something like a 9/11 
attack. Then we went in and fought. Then we put in Karzai--we 
worked with Karzai. Then we went back to the Taliban and we cut 
deals with the Taliban.
    So, I mean, how much longer? I mean, you are our expert 
because you are there and you are leading our forces in 
conjunction with what is going on there. How much longer, how 
many more $5.1 billion couple of years are we going to have 
there?
    General Campbell. Thank you, ma'am. Put in context, a 
couple years ago it was about $12.5 billion. So what we try to 
do and what we have been able to do over the last several years 
is continue to bring that cost down. And we are committed to 
continue to get an affordable, efficient, and sustainable 
Afghan security force. And to do that we take a look at how we 
can save money, how we can make them more efficient. And the 
$5.1 billion, through all of the donor nations, we are going to 
continue to try to bring that down over the years.
    But I do believe we are going to need the 352,000 for the 
Afghan security forces at least through 2020, and that is what 
we are talking about at Warsaw when we go for 2017, 2018, 2019, 
and 2020, to get the money to fund that.
    But the amount of money we are putting in infrastructure to 
build them their training ranges, to build them their compounds 
that they live at, we are not doing that anymore. We have come 
way off of that. So the money that we provide continues to pay 
for the salary of the Afghan police and the army, and then we 
continue to look at life-cycle management of equipment, of 
ammunition, of those kind of things.
    So I think other reports will tell you that the Afghans 
will not be able to pick up that bill totally based on their 
economy until probably about 2024. Five hundred million they 
are required each year to provide to their security forces. 
That is the commitment that was made in Chicago in 2012. And we 
want them to continue to raise that every single year. And they 
have done that the last 2 years.
    And so we are really pushing them to continue to grow their 
commitment, to show that they are doing that. But at the same 
time, we have to look at ways to make their military more 
affordable, sustainable, and efficient as we move forward. And 
so I think the $5.1 billion will continue to come down and we 
will still be able to hold the 352,000 at that level at least 
for the next 3, 4, 5 years there.
    Ms. Sanchez. But if I heard you correctly, you believe 
personally that we have to be committed at least till 2020 and 
that from a budget standpoint, if all goes well in Afghanistan, 
they might be able to sustain their own army without us helping 
in 2024.
    General Campbell. Ma'am, I believe that we need a long-term 
commitment to Afghanistan both in a forward presence and also 
in the money that not only the U.S., but the rest of the donor 
countries provide.
    Ms. Sanchez. Yeah, I know the rest of them do, but when I 
am looking at $5.1 billion, $4.1 billion of it is coming from 
us. So, I mean, we are the majority stakeholder.
    General Campbell. Absolutely.
    Ms. Sanchez. Okay. Thank you, Mr. Chairman. I appreciate 
the time. Just trying to get some clarification on where we are 
and where we are going.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, General, I did listen to your testimony, I read your 
testimony, I have great respect for you. And my frustration is 
the same that Ms. Sanchez is talking about. You know, there is 
an article, you have pretty much verified this in a way, it 
says the U.S. was supposed to leave Afghanistan in 2017, now it 
might take decades. That could be 20, 30, 40 years.
    I have heard people in the same position that you have and 
you will soon be leaving, who I have great respect for, to 
continue to talk about for the 14 years of training the Afghan 
security forces, and we are making progress, but we have been 
making progress for 14 years. And now we are talking about more 
years to train the Afghan security forces. The American people 
are just--they are not upset with the Afghans, they are upset 
with Congress. We are spending all this money over there.
    Let me just very quickly, John Sopko to the Senate this 
past week testified that among the more egregious examples of 
boondoggles, he cited importing rare, blond, Italian goats to 
boost the cashmere industry. The $6 million program, including 
shipping nine male goats to western Afghanistan from Italy, 
setting up a farm, a lab, and a staff to certify their wool.
    This has nothing to do with you or our great military, but 
this is where the American people are just sick and tired. And 
Mr. Sopko testified we don't know if we used the wool for the 
fur from the goats or we ate them, meaning the Afghans.
    This is why this has got to come to a satisfactory end and 
there has got to be someone who follows behind you, in my 
humble opinion, that is going to say to the Congress we are 
going have a benchmark, and if the Afghan security forces 
cannot meet that benchmark we are not going to continue to 
bankrupt the American people.
    We right now are $18.9 trillion in debt. We will this year 
hit $19 trillion. It was the former Chairman of the Joint 
Chiefs, Admiral Mike Mullen, who said the biggest threat to our 
military is the debt. And he said it when we were a heck of a 
lot less than $19 trillion.
    So along with Ms. Sanchez, I want to say that you have been 
an outstanding leader of our military, like so many. But when 
you really come down to it, the responsibility, we take your 
advice and are supposed to make the best decisions that we can. 
But when I look at all the waste, fraud, and abuse in 
Afghanistan, much of it coming from the Pentagon, not just the 
Afghans, but the Pentagon, it is not fair to the American 
people. It is not fair to our military.
    Right here in the Military Times they are talking about 
that here we go again possibly giving our military a 1.6 
percent increase. That is just way under the private sector. 
They deserve the very best, and I know you believe that because 
you have advocated for them, and I want to thank you for that.
    So since the chairman knows sometimes I run over, I don't 
even have a question today. I just want to make my point for 
the citizens of the Third District of North Carolina who pay 
their taxes, love the military in eastern North Carolina, the 
home of Camp Lejeune Marine base, as you know. But they know 
that our policy in Afghanistan, there is no endpoint to it. It 
is just going to go on for the next 20 or 30 years.
    So with that, Mr. Chairman, to make you happy, I yield back 
the balance of my time.
    Mr. Russell. Will the gentleman yield? Will the gentleman 
yield?
    The Chairman. The gentleman yields back.
    Mrs. Davis.
    Mrs. Davis. Thank you very much. Thank you, Mr. Chairman.
    And to you, General Campbell, I certainly want to thank you 
for your dedication. Those of us who have had a chance to work 
with you and visit with you in Afghanistan really know and 
understand that.
    I particularly wanted to thank you really for your 
understanding, and more than that your direction in the 
empowerment of Afghan women, looking at gender issues, not just 
really as it supports the women, the education, the health 
care, but as it really addresses their own national security. 
And we know that that is so critical. And I think their role in 
law enforcement and also in the military now has changed as a 
result of many of your efforts, and I appreciate that greatly.
    I also understand, I think we should have and were really 
negligent in not looking at 5-year plans previously. And I 
wonder if you could talk a little bit more about that. How is 
that going to be different than what we have done? And what are 
those priorities that you would appeal, I think, to General 
Nicholson in how he structures that, and it is not just the 
next 5 but the 5 after that, to try and help not just all of us 
and Americans understand that, but also signaling to the Afghan 
people?
    Because I think that is really critical. And it is those 
political objectives that we also need to be worried about 
since we know Afghans are leaving in great numbers because they 
don't have confidence in their own government right now.
    How would you structure that? What would you do 
differently?
    General Campbell. Thank you, ma'am, for the question. And 
thank you, as many members here have traveled to visit our 
great men and women over there. I know that makes a big impact 
on them. So thank you. And I think you can almost tie this into 
what Mr. Jones said as well. Emanating out of Afghanistan, 
Pakistan, and other parts of that world is this thing called 
terrorism. Terrorism knows no boundaries. And terrorism is 
going to be a generational thing.
    And so if we think we can just stop and it is going to go 
away where people are not going to continue to try to attack 
Europe or attack our homeland here then we are just, we are 
naive, we are kidding ourselves. And so we have to be able to 
continue to have a long-term commitment.
    We are the most powerful country in the world. We can do 
anything we want. If we want to stop this terrorism that kills 
innocent men and women, that has come to the United States on 
9/11, that is killing millions and millions of people 
throughout the world, we have to stand together. This has to be 
a global effort not only from Afghanistan, but throughout the 
world. And President Ghani is trying to work a regional issue 
and showing that all the countries around Afghanistan need to 
stay committed to building their own capability to fight 
terrorism.
    Again, it is not going to go away whether we put $10 
billion for the next 10 years or $4.1 billion. We have to get 
united, we have to fight this as a global force. And 
Afghanistan wants to be part of that force and Afghanistan has 
the leadership in President Ghani and Dr. Abdullah to be good 
partners to do that. And that is what inspires me to continue 
to work with their military as they do that.
    Talking in terms of a 5-year plan, what that does for 
Afghanistan, it provides the men and women there, the boys and 
girls going to school, the businesspeople that, hey, we are 
committed, we going to be there, they are not looking over the 
shoulder that we are going to make another decision or downsize 
or leave or lose money.
    The impact of the number of forces we had to where we are 
today in the last couple of years has had a huge impact on the 
economy of Afghanistan as we have come out and they are trying 
to recoup from that. President Ghani has some good measures to 
look forward. But it is not just the security. He has got to 
look at the political dimension inside of his national unity 
government, he has got to look at the economy and continue to 
build on the economy from a regional standpoint. And he is 
reaching out to get railways, to get power, to get business 
investment from the Gulf countries into Afghanistan. He is 
doing all of that. It is just going to take time.
    So I think my 5 years piece would say longer-term 
commitment. It means to the Afghan security forces, we are 
there, we are going to continue to have your back. It means to 
the people in Afghanistan that we are going to be there, we 
have commitment, we are going to work on their security, help 
build their security. It means to the Taliban that, hey, we are 
going to be there, you need to come to the peace table, you 
know, we are not leaving. It means to people like Pakistan and 
the other countries that we need regional partners there to 
continue to fight this thing.
    Mrs. Davis. Could you, General--I think my time is up--I 
wanted you to just address the conditionality for a second in 
terms of these issues. What will be different?
    General Campbell. Yes, ma'am. Thank you. We started last 
year, we are doing much better now, on conditionality. 
President Ghani welcomes conditionality. And all the money that 
we have, that we put in the MOI [Ministry of Interior] and the 
MOD [Ministry of Defense], we put conditions on it: You must do 
this, this, or this or you don't get this or that. We are 
trying to do better on incentives as well, to have incentives 
both the carrot and the stick there. They welcome that. It 
helps drive them to maintain better, efficient use of the money 
that we have there. We know we have to do better.
    Mrs. Davis. Thank you, sir.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General Campbell, I want to thank you for your service to 
our country and the great job that you are doing, and we all 
feel that way. It has been said before, but I wanted to echo 
that.
    A previous question implied that we made a good handoff to 
the Iraqis, and I think that that is the farthest thing from 
the truth possible. I think we abandoned them and really put no 
effort into a status of forces agreement and an American 
presence that would have supplied some kind of advising and 
backup and support that I think would have made a huge 
difference when ISIS came across the border from Syria into 
Iraq. So I think the way we abandoned Iraq is part of why ISIS 
is in Iraq.
    But having said that, in Afghanistan we all want to see it 
done differently, and we want to see the kind of transition 
that makes them a stable country and able to stand on their own 
two feet. So I think we are all in support of that.
    Are you concerned, General Campbell, that there are people 
out there in our society who want to withdraw from Afghanistan 
precipitously and not get the job done before they are able to 
stand on their own two feet?
    General Campbell. Sir, I can talk purely from a military 
perspective. We have to continue to provide the Afghan security 
forces the ability to stand up on their own feet. They need 
help in areas that we said they have needed that help for 
several years, aviation, intelligence, logistics. I think 
people that may be saying those kind of things may not have an 
on-the-ground perspective of where the Afghan security forces 
are at or how dangerous this thing, terrorism and the insurgent 
groups and the safe havens that have been there in the past, 
will mean to the homeland or Europe if we don't continue to 
keep pressure on them.
    Mr. Lamborn. Thank you.
    Now I want to ask you about the rules of engagement, hot 
pursuit into Pakistan. Would you like more flexibility when it 
comes to pursuing people who have committed terrorist or other 
violent acts and are melting back into Pakistan, to be able to 
strike them, even if they are right at the border?
    General Campbell. Sir, as a matter of course for 
operational security we don't talk about rules of engagement in 
an open forum. I can talk to you off-line if you want to do 
that.
    Mr. Lamborn. Okay. Thank you.
    Lastly, I want to ask about a real specific question having 
to do with American contractors and defense-related companies 
that I think are sometime being pressured by the Afghan 
government or people within the government, people within the 
bureaucracy, to pay licensing fees or taxes or whatever they 
call it. But it strikes me that this is contrary to language we 
have put into the NDAA [National Defense Authorization Act] 
that companies don't have to pay those kinds of taxes to do 
business in Afghanistan. But if they have to pay these for 
whatever it is called, they are going to really have their 
ability to get their job done impaired, which will hurt your 
forces getting their job done. Can you talk about that please?
    General Campbell. Sure. Briefly, I could. In the BSA 
[bilateral security agreement] it specifically states what 
Afghanistan can do or not do for contractors. And as we work 
any issues that come up from contractors through the U.S. 
Embassy there with the Afghan national unity government we have 
come to amenable conclusions on all that. I think we just have 
to raise those up. They have to bring that attention forward.
    Again, President Ghani understands how important it is to 
bring business in, and they want to make sure they don't do 
anything to create an obstacle there. But most of that is 
covered in the bilateral security agreement that was signed, 
and if there are issues, we can take each of those and work 
those through the U.S. Embassy.
    Mr. Lamborn. But it has come to my attention that despite 
the BSA and despite language we have put into the NDAA, this is 
being abused, this process is being abused.
    General Campbell. Sir, the ones that have been brought to 
my attention, have been brought to my folks that work any of 
the procurement issues at Resolute Support, we have been able 
to work those with the Afghan Government. I don't know of these 
particular ones you are talking about, but maybe I can talk to 
you afterwards.
    Mr. Lamborn. Okay. So if there is a particular issue we 
become aware of we can come to your people?
    General Campbell. I work with the U.S. Embassy there.
    Mr. Lamborn. At the embassy, okay. All right, thank you 
very much, General.
    I yield back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chair.
    And thank you, General. In your testimony, you talked about 
2015 you--or in 2016 you wanted to get continued flexibility 
into 2016. Can you give us an example of what that continued 
flexibility would mean? What flexibility don't you have? And 
what flexibility would you propose the mission have in 2016 and 
2017?
    General Campbell. Sir, thanks for the question. When it 
comes in terms to what a commander has or doesn't have on the 
ground, I think you can break it down into bins. It is 
resources. Resources includes people. It includes equipment. It 
includes, you know, airplanes. It includes authorities, what 
you can and can't do. So I think those are really the two that 
I deal with.
    All of those, we work assessments. I continually work 
assessments. We provide that information to our higher 
headquarters. If we need adjustments to the authorities, if we 
need additional authorities, if we need to change authorities, 
I bring that through my chain of command. It works through a 
broader process, as I talked about, through CENTCOM [U.S. 
Central Command], through the Joint Staff, through OSD [Office 
of the Secretary of Defense], up to the White House.
    In 2016, we have the number of people we have on the 
ground, we have the equipment that we have on the ground. We 
are working toward having the Afghans continue to have a 
campaign plan as they move forward. And so as we take a look at 
what else we can do, authorities is an area that I would 
provide my best military advice to my chain of command as we 
move forward.
    I don't get into particulars on authorities in an open 
forum. I can talk to you afterwards. Again, some of these 
authorities would provide changes in what we could do to the 
enemy. And I don't want to talk about that in an open forum to 
give them any kind of advantage. But I would be glad to talk to 
you in a closed hearing on that.
    2017, again, I think is an opportunity to continue to 
assess how the Afghans have improved over fighting season 2016 
and do we need to do something different and do they need to do 
something different as we go forward.
    They understand that, you know, the majority, 51 percent of 
this is on the Afghans, that they have to continue to get the 
reforms that we continue to push them on, getting off of 
checkpoints, getting more maneuverable, reducing the attrition 
levels that they have, to recruit better, to recontract better, 
to build upon leadership, to get after corruption. All those 
kind of things, those reforms, we continue to work with them.
    They know that whatever we are going to do is based on how 
they continue to adjust their own. And if they don't continue 
to get better, they will lose the confidence of us, they will 
lose the confidence of the donor nations, and they don't want 
to do that.
    Mr. Larsen. There was a report this morning, I think, of 
expanding the amount of dollars for the European Reassurance 
Initiative, and that money would come from the Overseas 
Contingency Operations account, or OCO, which seems to me it 
would put more pressure on available resources in OCO.
    Assuming that newspaper report is true and we are going see 
that in the budget, just assume it is true for a moment, what 
impact would that have on the U.S. and the NATO mission in 
Afghanistan if, in fact, the dollars that we thought we were 
voting for, for OCO, which would go to Afghanistan and Iraq, 
are now going to be used for ERI.
    General Campbell. Sir, I haven't seen the report. I 
couldn't comment on the amount or anything like that. But 
assuming that Afghanistan was going to take a cut in OCO, I 
would have to assess on the impact of that cut and go back to 
leadership and say this is the risk that would occur because 
you are taking away OCO.
    Hypothetically, I couldn't answer that. But if I was to 
lose OCO money, which I do need, then I would take a look at 
where that was coming from and then the risk that it would mean 
to my forces.
    Mr. Larsen. That is good. Thank you very much.
    I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Campbell, thank you so much for joining us today. 
Thanks for your service and what you are doing there in 
Afghanistan. I know it is a challenge.
    When we met with you back in November, one of the 
discussions we had with you was about the ANSF [Afghan National 
Security Forces] close air support capability, what they are 
doing to develop that, where they are today. Can you give us an 
update on where those pilots are? I know that they, I think, 
have completed some training here in the United States. Where 
are the capability gaps with ANSF close air support capability?
    I know you point to some resource shortfalls. So can you 
describe to us where things are there and what needs to happen 
in the months to come for them to gain that full capability?
    General Campbell. Sir, thanks for the question. Again, 
thanks for your visit as well.
    Sir, as we have talked in the past, I mean, to build their 
close air support, their aviation, their air force to what they 
need with a 352,000 force, with the enemy threat they face, 
that is going to continue to take years and years. What has 
changed since we last saw you, about 2 weeks ago they received 
the first four A-29 Super Tucano fixed-wing, for lack of a 
better term, bombers that are there. The Afghan pilots are 
flying those. They will get them into the mix in combat here in 
the next couple weeks. They are doing additional training 
inside of Afghanistan. There will be another four that come in 
probably the April-May timeframe, more into 2016, 2017, and 
2018 as we build that force up. But for the next large, well, 
the next summer campaign fighting season, per se, they will 
have about eight of those that are there.
    The MD-530 Little Bird helicopters we have got over the 
last year, there are about 14 in country. They continue to get 
those. They continue to get better and better. They have flown 
the MD-530s in Nangarhar in combat. They have flown them in 
Helmand in combat. They have flown them in Kandahar in combat. 
And they have had very good results. They have learned lessons 
learned on trying to increase, you know, flight time. They have 
moved ammunition around to be able to rearm and refuel these 
helicopters at remote sites. So their capability continues to 
increase.
    They are learning lessons on medevac and how they can move 
their injured on the battlefield with some of their fixed-wing 
aircraft, how they can tie their Mi-17 helicopters in with 
their forward-firing Mi-17 helicopters to provide aerial 
support to go into remote LZs [landing zones] to pick up their 
wounded and they have reduced the time. So they continue to 
build upon that.
    Sir, it is going to be a continued challenge. It takes 3-
plus years to get a pilot. They have to recruit now to have 
pilots for 3 years from now as they continue to build. To build 
maintainers there will take 3 to 5 years.
    Mi-17s will continue to be a challenge. We are not buying 
any more of those. As they continue to have battle loss or 
issues with maintaining those, you know, we are going to have 
to come up with ways to work through that. And we have a study 
out that looks at a future aircraft. They want to have a U.S. 
aircraft, helicopter, attack helicopter, and we would have to 
come back to Congress to ask for continued support to do that.
    But every day I see the air force continue to get better. 
The Afghan Special Mission Wing that supports the Afghan 
special forces with their helicopters, rotary-wing support, is 
incredible and what they can do at night. But the conventional 
forces lack the capability to fly. Many of them can't fly at 
night. And so we have got to continue to build that capability.
    Mr. Wittman. I know when we met there, the concern is, is 
that the Russians are no longer selling parts to the Mi-17. So 
how much of a gap do we have in Mi-17 availability and the MD-
530s and the capability that they are providing? Because if we 
have a shrinking capability within our rotary-wing force there, 
that creates a significant issue.
    So where are we with keeping the Mi-17s flying and closing 
the gap with the MD-530s?
    General Campbell. Sir, thanks. You know, the Mi-17 was 
never designed to be their close air support helicopter. It was 
really for transport from medevac. What they did and what we 
did to help them this year was mitigate that by putting 
fortifying machine guns in some of the Mi-17s, about 10 of 
them, and then putting rocket pods on some of the other ones 
for a total of about 15 or so that have that.
    They continue to do that. But they are losing, based on 
just wear and tear in the aircraft, combat losses, anywhere 
between 7 to 10 each year, and we have got to continue to work 
through that. They have issues with overhaul maintenance. The 
chairman and I talked the other day on as we move forward, what 
else can we do to work through that. And I owe the chairman 
some more information on that. But they weren't really designed 
to complement the MD-530.
    They do, sir, if I could add one thing.
    Mr. Wittman. Sure.
    General Campbell. They do have three Mi-35s, really Mi-24s, 
Mi-35s from India. They will have a fourth one coming in pretty 
soon that will add to their inventory as well, and that will 
make a great difference.
    Mr. Wittman. In closing, how reliant are they upon U.S. 
enablers for logistics, maintenance, those kinds of things? 
Because that has a sustainability leg to it too for their 
aircraft.
    General Campbell. Sir, they are relying upon a lot of 
contractor support, just like the U.S. Army does a lot of 
maintenance on our helicopters rotary wing with contract 
support. They do the same thing. And so they are very reliant 
on parts, on contractors as we move in. We will try to continue 
to reduce that as we build the Afghan capability.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you, General Campbell. I wish you all the best.
    I think we would all like to someday talk about something 
other than war in Afghanistan. It is a most remarkable country. 
I know as I have been there and flown over it and you look 
down, you can imagine what a very different place it could be 
if we could only finally get to a place where the country is 
more stable as we focus on keeping it and preventing it from 
becoming yet again a safe haven for potential attacks on this 
country. That has always been our motivator.
    But I have to say, in my last visit home, we were just back 
in our districts for a couple of weeks, I had an opportunity to 
meet with a support group for families of those who have 
served, both in Afghanistan and Iraq. And it was really a 
reminder, as I know it is for all of us who meet with these 
families, what a shared sacrifice it is, that as their young 
people go and serve and come back, the struggles are not over, 
and that these families have long-term commitments to their 
young people who have served in our behalfs. And everybody 
tries to come together to move them to another place in their 
lives. That is something all of us always have in the backs of 
our minds.
    And also in my many visits there, we can't help but feel 
good about the many gains that have been made. We have talked 
about the gains for women. I have been to schools where you 
have seen the opportunities that creates for their young 
children. It is remarkable really. So we all feel pride. And in 
meeting with Afghans too, what pride they feel for those gains 
that they have achieved.
    But also now we are hearing more about fear. They are 
becoming yet more afraid. And as we struggle with what our way 
forward should be, all along the emphasis has been on our 
Afghan National Security Forces. I can remember, as the surge 
was put in place, being in Afghanistan and meeting with some of 
the young recruits and understanding what an extraordinary 
challenge it was going to be to train and equip these young 
people, to get them to a place where they could replace the 
very professional efforts that we have brought to it.
    And so I am just wondering, even as you talk about how a 5-
year plan might be an appropriate way forward, the issue of 
attrition has been an ongoing one. So given the challenge, as 
you bring in, you train and equip, you get these people up to a 
place, then you lose them, there is the cost to the billions of 
dollars spent on the effort. But also I think we have to be 
realistic about what that attrition rate, really the impact it 
has on our long-term ability to transfer and be secure that 
this is a durable transfer to a security force that hasn't yet 
demonstrated that it can recruit and keep a security force that 
is up to the task. How are you dealing with the attrition rate?
    And I think it also has to be complicated by the death 
rate. I mean, I read alarming numbers of losses. And I can't 
imagine how that reverberates across Afghanistan as families 
are sending their people off to fight--rightfully so. I mean, 
this has to come down to them. But how are you dealing with 
those two elements?
    General Campbell. Thank you for the question, ma'am. 
Attrition is one of the areas, one of the reform areas we work 
very hard with the Afghans. It is a couple different 
components. For me, it really gets down to leadership and 
holding leaders accountable to take care, understand their 
young men and women that join their services. They don't have 
the noncommissioned officer corps that we have in all of our 
services that really look at that discipline. If you recruit 
somebody in Badakhshan way in the north, put him down in 
Helmand, and let them sit there for 3 years and fight, he is 
not going to have the attitude that I want to continue to serve 
and stay there. He has to be able to get on a cycle that he can 
sustain to be able to train, be able to go see his family, and 
then fight. They don't have that in their conventional army. We 
are working toward that. That is one of the reforms.
    Ms. Tsongas. What is the attrition rate at this point, just 
a number?
    General Campbell. Ma'am, I can come back to you with an 
exact number.
    [The information was not available at the time of 
printing.]
    General Campbell. The last couple months the recruiting has 
gone up. They are recontracting, what we would call 
reenlistment, keeping people in after their first term has gone 
up. So that has offset some of the attrition. But it continues 
to be an issue.
    They can train about 6,000 a month if they recruit that 
much. They will maintain levels, no issue. But, again, it gets 
down to leadership. They do have a working group. And we have 
had a task force on attrition headed by their vice chief of the 
army, Lieutenant General Murad Ali. We have advisers that meet 
with him all the time to work on different issues to get after 
the recruiting and the recontracting. We brought experts from 
our Recruiting Command in the United States Army to Afghanistan 
for a very short time to take a look at all the processes and 
systems they have to make sure we can adjust as they move 
forward.
    But it is putting attention on it, and President Ghani is 
starting to hold corps commanders and other leadership 
accountable to really get after attrition. It is going to take 
some time to continue to build that. But I think they do have 
the focus on that now.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Campbell, I had the pleasure of visiting 
Afghanistan late last year and spent Thanksgiving with some of 
our troops and had the opportunity to meet with you as well. 
While I was there, I had the opportunity to observe--actually 
this was before--some of the ANA [Afghan National Army] field 
artillery. And so I think my concern is are we giving them 
weapon systems that are simply too complicated for them to 
effectively deploy as well as ever maintain? And I don't know 
if this would be appropriate for a classified setting, if the 
ANA has been able to actually deploy that artillery. I think 
they were using a D-30 system.
    General Campbell. That is right.
    Mr. Coffman. I wonder if you could comment on that.
    General Campbell. Sir, again, where they have been trained 
in using the D-30, they do quite well. They do a lot more 
direct fire as opposed to indirect fire with the D-30s. We have 
worked with them on that. We have worked with them on 
preventing civilian casualties by using indirect fire, direct 
fire. But they have employed the D-30 in many places throughout 
Helmand and many places in the east.
    Again, it depends on which corps and how much emphasis they 
put on the training and how much the leadership actually 
understands about that. We have had advisers work with them 
specifically on the D-30. The chief of staff of the army there 
recently appointed a new chief of field artillery. So he is 
revamping the school and the training that goes along with the 
D-30 and all the assets. They use a 60-millimeter mortar quite 
well also in combat.
    But it boils down to if they have had the right training on 
that particular piece of equipment, And I think we have got to 
continue to work with them on that.
    Mr. Coffman. Thank you, General Campbell. I mean, my 
concern with that, I think you mentioned 60-millimeter mortars, 
which seems very appropriate for them. And given the capability 
of the enemy that has essentially light mortars, some crew-
served automatic weapons, small arms, IED capability, RPGs 
[rocket-propelled grenades], but that is pretty much it.
    So I am concerned about whenever we give them a major 
weapon system that is complicated, that this artillery requires 
a lot of vehicle assets to be able to move it, logistics are 
more complicated, fire direction is much more complicated than 
light mortars, and individual infantry can move light, 
dismounted, can move light mortars. And so I just think we need 
an evaluation across the board.
    I want to commend you for your service and for all you have 
done. I want to be fair to the Afghan security forces in having 
systems that they can readily deploy, that are within their 
capability, and also their ability to maintain them. And so I 
think to be fair to them and be fair to the taxpayers of the 
United States, to make sure that we are giving them the 
appropriate weapons and equipment.
    General Campbell. Sir, thanks. I think what President 
Ghani, Dr. Abdullah, the senior leadership that I deal with 
understand when the United States provides equipment, it is 
kind of one station does all. They get the training, they get 
the maintenance, and they get practical application on the 
equipment. So just like we do with A-29s, MD-530s, M4s, M16, 
NATO weapons, they get that training. They learn the 
maintenance of it.
    We do the same thing with the D-30s. D-30s were cobbled up 
many years ago from different nations. We are working now to 
make sure they have a standard D-30, they all have the same 
type of sight system on that, and we are working through that 
piece. They have the right lots of ammunition and they know how 
to employ.
    But they do include the D-30 as part of their overall 
architecture for fire support. So when you talk close air 
support, they use the D-30 to provide some of that indirect 
fire when they plan for operations as they go forward. And they 
will continue to get better. And I will take a hard look at it, 
sir, as you have mentioned.
    Mr. Coffman. Thank you. Thank you, General Campbell.
    I yield back, Mr. Chairman.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    General Campbell, everyone has commented on your great 
service to this country. I too would like to extend my 
congratulations.
    I also want to congratulate you on presenting probably the 
most well-written statement, clearest statement that has been 
before this committee in some time. You were direct and to the 
point and I appreciate that. Oftentimes, we get mixed messages. 
You were very clear in your presentation.
    Having said that, you made the point that 70 percent of 
Afghanistan is still under the control of the government. SIGAR 
[Special Inspector General for Afghanistan Reconstruction], in 
its quarterly report, its most recent one, said that the 
Taliban now controls more territory than at any time since 
2001. So that would suggest to me that we are not gaining 
ground, we may, in fact, be losing ground.
    So my question to you is: What should we be doing 
differently? And what conditions should we be looking at to 
determine if our strategy is succeeding? And will the job ever 
be done there?
    General Campbell. Thank you, ma'am. I think as we move 
forward, again, we have got to continue to work with the Afghan 
Government, with the Afghan security forces, and increase their 
capability. And I do see changes in leadership. I do see 
changes in their ability to plan operations as they move 
forward.
    Again, the things that are very hard for the U.S. Army that 
has been around for 240 years is very tough for an army that 
has only been around for 8 or 9 years. And if we try to compare 
the two, then we will make some bad comparisons.
    On the Sopko, Mr. Sopko and the SIGAR report of more than 
2001, you know, in 2001, the Taliban controlled the government. 
They were in Kabul. It is not like that today. So I am not sure 
where that statement came from. It is totally different than 
2001. And the Afghan Government is in control of Afghanistan. 
And I told you about 70 percent influence control. So I am not 
sure where the statement came from Mr. Sopko on that, the 
comparison to 2001.
    I think as we move forward, again, we have to make sure 
that we have realistic expectations on how fast they can move 
to be a force that can take care of Afghanistan and the people.
    If I thought that the sacrifices we have made over the last 
14, 15 years weren't worth it, if I thought that what we were 
doing there was not going to pay dividends, hasn't paid 
dividends, hadn't prevented another 9/11 from happening, I 
would tell my son who is in the Army, who the last time I saw 
my son, he is a sergeant, was in August of 2014 in Jalalabad on 
his second tour in Afghanistan. I talked to him 2 days ago as I 
got back here. He is getting ready to deploy on his third tour. 
If I thought that it wasn't worth it, I would tell my own son: 
You need to do something different.
    But I absolutely believe that the commitment of our young 
men and women as we move forward is going to make a difference 
not only for the Afghan people, but for the security of our 
homeland. And we haven't had another 9/11 since we have been 
forward deployed.
    And I think sometimes we just kind of wish that away. And 
the world we live is not that way. It is going to continue to 
be a dangerous world for the rest of our lives. And we have to 
do everything we can to build up capability for countries like 
Afghanistan to help us in that fight. And they want to do that.
    Ms. Speier. So you reference being clear-eyed about this. 
Do we have to accept the fact that we are there indefinitely, 
that we have to have a peacekeeping force there much like we 
have in Korea?
    General Campbell. Korea, Germany, I have heard those 
references made before. You know, we had 300,000-plus at one 
time, when I first went to Germany as a second lieutenant, and 
we are down to probably between 20,000 and 30,000. In Korea, it 
is somewhere between 20,000 and 30,000.
    We are nowhere near those levels in Afghanistan, but yet we 
continue, although sometimes not as fast as we want, to 
continue to grow the capabilities of the Afghan security 
forces. I do believe we are going to have to continue to 
provide monetary support until the Afghans can pick that up on 
their own. I said that is at least till--all the reports 
indicate at least till the 2024 timeframe where their economy 
will be able to support the Afghan people completely on their 
own. They do continue to raise their commitment for their 
Afghan security forces, $500 million this past year. They will 
continue to raise it every year.
    But I think, you know, we have to figure out what that 
balance is going to be. We have to figure out balancing the 
number of casualties that we have. And I believe the American 
people, understanding how important it is to have a presence in 
that part of the world and what it does to second-, third-order 
effects, you know, that they will continue to support as we go 
forward.
    Ms. Speier. Maybe for the record you could answer this last 
question. I am running out of time. The Wall Street Journal 
today says the rules of engagement need to change if we are 
really going to make some headway there. Maybe you can respond 
for the record for that.
    General Campbell. Ma'am, I will take that for the record in 
a classified response. Thank you.
    [The information referred to is classified and retained in 
the committee files.]
    The Chairman. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    And thank you, General. You caught me by surprise yesterday 
when I learned of your retirement. It caused me to reflect on 
when I first met you. I think it was about 25 years ago when 
you were a major and I was a captain. And those were 
interesting times, but I don't think either of us could have 
anticipated what these past 25 years have wound up being.
    And, General, you have always taken all the hard jobs. And 
I think of your honorable, faithful service over the years. I 
am thinking at this moment of your time as a brigadier general 
in Baghdad. I know that was a very tough time. We lost a lot of 
great Americans then.
    And I just want to say that when I think of you, I think of 
integrity, unflappable mental and physical toughness, and 
dependable. So I thank you and your family.
    I want to take note of a comment you made earlier. You 
talked about leverage when it comes to ensuring that the 
investments that we are making in Afghanistan come to fruition. 
In my view, that was really among the most important lessons 
from Iraq. We quibble over some things, but I think that we 
really lost opportunities. We had significant leverage, the 
financial investments we were making there and other matters. 
And while we were seeing the deterioration, we saw a leader in 
Iraq at the time that was corrupt and really sectarian. And I 
think we missed a real opportunity to use leverage to change 
that. And so I just want to appreciate that comment.
    But my question to you--and, by the way, I hope that the 
administration is listening, sort of a segue to the last 
point--which is, as we think about going forward from here and 
for the next President, I would love for you to tell us--
because I accept the point you make that as hard as matters 
have been in Afghanistan, by keeping the pressure on them over 
there, we are protecting the American people here.
    So if you were able to change things in any way, how would 
we improve our counterterrorism, counterterrorism in 
Afghanistan and in Pakistan, but really, so specifically there, 
but then in general, what lessons, what changes in policy would 
be necessary so that we can improve our counterterrorism?
    General Campbell. Well, thanks for the question. And thanks 
for your service as well all the way. That is a great question 
as we move forward.
    I think, for me, what I reflect on, from a CT, 
counterterrorism, perspective, when I got there 18 months ago, 
as we were going to 1,000, Kabul-centric, there is no CT 
strategy. And what we have done has been able to push that. And 
we do now have a counterterrorism strategy in that part of the 
world as we move forward. And I think we do have to continue as 
part of that strategy to build the Afghan forces up so they can 
take that over.
    That is going to take a long time. As you know, the men and 
women that we have that do CT have been doing this for many 
years, and they take great pride in their precision, on their 
ability to gain the intelligence that is required, on and on 
and on. And I think as we move forward, what we have to do is 
continue to rely on lessons learned, go back and take a look at 
everything we have done. We can always get better.
    But I think there are, and I don't want to get out of the 
lane on policy, I do believe that there are issues throughout 
the world, not just on Afghanistan, on how we can apply policy 
different, apply pressure that ultimately will get after this 
global, generational threat, terrorism, which knows no 
boundaries. And I think part of it is getting the rest of the 
global community to help fight this. It can't just be the U.S., 
although they depend on the U.S. to lead the way. We shouldn't 
forget that. Even with NATO, they didn't make the decision to 
continue Resolute Support longer until the U.S. made its 
decision. That is how they depend on our leadership and 
understand how important that leadership is.
    And so I think in the world of CT, there are things that we 
can do throughout the world that probably we ought to talk in a 
classified hearing, not to give our enemies an advantage here, 
that we could do a little bit differently. But we have the 
greatest CT capability in the world. And it continues, I think, 
to get better and better under the leadership of guys like Joe 
Votel and Tony Thomas and others. So I am proud to have been 
able to work with all those forces both in Iraq and Afghanistan 
over the last 14, 15 years.
    Mr. Gibson. I thank you, General. And as we all go forward, 
I think it is important that you think about, you mentioned 
NATO being involved here and really all of our friends and 
allies in thinking across the spectrum in terms of intelligence 
required, force protection, all of the assets that are going to 
be necessary for us to prevail.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman.
    Aloha, General Campbell. Thank you for your service in 
Afghanistan and candor with this committee.
    As we make adjustments to our funding commitments in 
Afghanistan in light of the budget pressures, what metrics are 
we measuring the Afghan National Defense and Security Forces 
capabilities such that we can reduce our support?
    General Campbell. Sir, again, a lot of that is, when we 
first started there, I said we were in the $12 billion to $13 
billion range. We were building a lot of infrastructure. We 
were providing a lot of equipment, arms. We don't have to do 
that now. So we just have to provide really--we look at 
providing life-cycle sustainment. So that has really cut down 
the amount of money and we will continue to work through that.
    As we deal with the Afghan forces on the monetary piece, we 
do look at making sure they understand, you know, it is very 
tough for us, PPB&E, which is really the planning, programming, 
budgeting, execution. We have advisers there, senior-level 
advisers that work with senior-level Afghans on budgeting, on 
programming, on their procurement. President Ghani chairs 
personally and Dr. Abdullah chairs personally a procurement 
meeting every Saturday night, it goes 2 or 3 hours, as they 
work on how they can cut out corruption, how they can get the 
right kind of contracts in there. He has definitely taken that 
on as trying to help cut out corruption. So that is going to 
help us continue to bring down.
    But we have to build their capability in that. And in the 
past, where many of our weapon systems were our young men and 
women out there fighting every day, shona ba shona, side by 
side, shoulder by shoulder with them. Now our weapon systems 
are our senior advisers, senior civilians that come over, 
senior military folks of all our services that work in the very 
tough areas of planning, programming, budgeting, execution, 
intelligence reforms, transparency and accountability, rule of 
law, those kind of things. I think as we continue to build 
their capability, they will get more efficient and we can 
continue to bring down the funding.g
    But we use conditions, again, to apply pressure, to make 
sure they understand that there is a sense of urgency here, 
that we have to continue to move forward. And they understand 
that and they want to make changes. But it is about changing 
behavior. And so you can't continue to do the same old thing, 
and you have to apply different ways to change behavior.
    Mr. Takai. Is it fair to suggest that increased support 
from U.S. contractors will be necessary to supplant the 
decrease in active duty military support?
    General Campbell. We have depended on contractors for years 
in many critical areas both in Iraq and Afghanistan. We do 
offset the number of military on the ground by the number of 
contractors. We do look at that very hard. We try to keep that 
in balance. But I think for the foreseeable future we will 
continue to have to have contractors involved, yes, sir.
    Mr. Takai. Thank you. While I know you have rightfully been 
focused on helping the Afghans fight the Taliban, ISIS, and Al 
Qaeda, my other assignment from HASC [House Armed Services 
Committee] is the ranking member of the Contracting and 
Workforce Subcommittee on the Small Business Committee. I 
wanted to concentrate for a minute on the U.S. contractors that 
enable you to perform your mission--you mentioned them just a 
few minutes ago--some of which participate as small businesses. 
It is my understanding that they are having significant 
challenges in dealing with the Afghan Government in a number of 
areas, such as tax disputes, attaining new or renewing 
licenses, and generally staying compliant with Afghan law.
    At some point, these issues will impact you and your 
successor's ability to perform the mission and reach our 
objectives. The contractors can't fix this alone. It must be a 
government-to-government solution. What is Resolute Support 
doing to help facilitate a solution to these challenges?
    General Campbell. Sir, that is the second question brought 
up on the contractor piece and the issues they may have. I will 
go back and make sure we are attuned to that. We do have the 
BSA and a task force that works both with the Afghans--the 
Afghans have a piece of that--Resolute Support and all of the 
embassies, especially the U.S. and the BSA, work toward that. 
The first meeting actually was last week, I think, at a lower 
level. It will come to both myself and the Minister of Defense, 
who will sit those. And these kind of issues, if not worked out 
at a lower level, will then be brought forward. And I will make 
sure that we take a hard look on any of the taxing issues or 
licensing issues.
    Again, I know President Ghani and Dr. Abdullah are very 
attuned to making sure that they create opportunities inside of 
Afghanistan not only for the Afghans to continue to build up 
and build business, but also they are going to need help from 
outside. And if they are doing things that obstruct that, as it 
impacts on the security perspective, we will make sure that we 
get after that. But I will go take a harder, deep dive on that 
and make sure we are addressing that fully.
    Mr. Takai. Okay. Thank you. I believe the bilateral 
security agreement and the NDAA say that these types of taxes 
are improper. In fact, we just met recently with a company that 
says that they are facing a $63 million tax bill. So this is a 
big issue that needs to be resolved. So if you can get back to 
us, I would appreciate it. Thank you.
    Thank you, Mr. Chairman.
    General Campbell. Absolutely. Thank you.
    The Chairman. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    General, I appreciate you being here and all your great 
work through the years.
    In your testimony, you write--or you say and write: ``We 
recently gained the authority to strike Daesh. Since then, we 
have had considerable success in degrading their 
capabilities.'' A lot of us were concerned that that authority 
was not given to you earlier than it was. And clearly that has 
been a challenge.
    Later in your testimony you write: ``Groups aligned with 
the Taliban, such as Al Qaeda and the Haqqani Network, continue 
to threaten our national security interests.''
    Can you share for us, do you have the authorities necessary 
to strike the Taliban, Al Qaeda, and the Haqqani Network?
    General Campbell. Sir, thanks for the question. I have the 
authority to protect the coalition members against any 
insurgents, Haqqani, Taliban, Al Qaeda, if they are posing as a 
threat to our coalition.
    Mr. Bridenstine. But do you have the authority to strike 
the Taliban because they are the Taliban?
    General Campbell. Sir, just like, again, if the Taliban are 
attacking coalition forces, then I have everything I need to do 
that. To attack the Taliban just because they are Taliban, I do 
not have that authority.
    Mr. Bridenstine. So the President--this is the 2001 
Authorization for Use of Military Force, quote: ``The President 
is authorized to use all necessary and appropriate force 
against those nations, organizations, or persons he determines 
planned, authorized, committed, or aided the terrorist attacks 
that occurred on September 11, 2001, or harbored such 
organizations or persons.'' Did the Taliban harbor such 
organizations or persons?
    General Campbell. The Taliban, Al Qaeda, all the insurgent 
groups, the networks that they have are really intertwined. It 
is very difficult many times to separate who is AQ, who is 
Taliban, who is TTP [Tehrik-i-Taliban Pakistan], who is IMU 
[Islamic Movement of Uzbekistan], who is----
    Mr. Bridenstine. So according to the Authorization for Use 
of Military Force, you have the authority, given to you by 
Congress, signed by the President, to use the necessary force. 
And yet the President, it seems, is saying you can't attack the 
Taliban even though they were responsible for September 11?
    General Campbell. Sir, I think as we adjusted our mission 
in 2015 we went away from combat operations. And we have worked 
with the Afghans to build their capability to go after the 
Taliban. Again, if the Taliban are attacking or pose a threat 
to coalition forces, I have everything I need to provide that 
force protection. But just to go after Taliban because they are 
Taliban, I don't do that, sir.
    Mr. Bridenstine. So when you talk about the train-and-
assist mission, the TAA mission, as your testimony talks about, 
one of the challenges we have is with only 9,800 troops, it 
makes it difficult to do that kind of training and assisting at 
lower levels. Is that correct?
    General Campbell. Sir, we only do train, advise, and assist 
at the ministerial level, MOD, MOI. At the corps level, and 
really only on four of the six corps. On the other two corps we 
provide expeditionary advising. So it is not what we call level 
1, it is not every day, it is sporadically. And then we provide 
tactical-level TAA only with the special operating forces and 
with the air force. We are not down at the kandak or battalion 
level. We are not down at the brigade level.
    Mr. Bridenstine. Would it be beneficial to you to be able 
to go to those lower levels with training and assisting?
    General Campbell. Sir, we are looking at in our assessment 
if that would make a difference. I don't think we can do that 
everywhere. You know, the number of forces that would take 
would be far more than what we even had in the surge many years 
ago. I think where we have to do a better job is taking the 
right units and providing them the right necessary equipment, 
training, manning, and put them in the right places. And as we 
focus on the special operating forces, they have made a huge 
difference.
    I think if they get after other reforms that we have worked 
with them on, getting off the checkpoints, coming up with a 
force-generation cycle, working off attrition, building 
leadership, that will probably do a lot more at this point in 
time for them than trying to put a whole bunch of people down 
at the kandak level. That is just unrealistic at this point in 
time.
    Mr. Bridenstine. The limited training and assisting that we 
are currently doing, we ought to be doing more. If we go down 
from 9,800 troops to 5,500 troops a year from now, I presume 
that means we are going to be doing even less training and 
equipping. Is that going to be a good idea or a bad idea? Given 
where we are right now, do you think that is even possible?
    General Campbell. Sir, I am working that assessment, work 
that through the process to provide where we go with that. 
Again, the 5,500 number is more focused on the CT mission as 
opposed to a TAA mission.
    Mr. Bridenstine. So we won't be able to do TAA at those 
numbers?
    General Campbell. Sir, we will have a very limited ability 
to do TAA with the 5,500 number.
    Mr. Bridenstine. Lastly, Mr. Chairman, it is astonishing 
that we have an authority to go after the Taliban and the 
President is preventing us from doing that. I yield back.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you, General Campbell. I was in 
Afghanistan last February, so a year ago. And I would just 
chime in by saying that I think that what I have been hearing 
today and have read is that there have been exceptional things 
happen in the last year. It is interesting, when we met with 
President Ghani back in February and we talked about the many 
elements of what has to change in Afghanistan to be successful, 
obviously, there is the military side, but there are other 
elements that are critical. And I was struck by what you said 
today and about your involvement in those other elements of how 
do you create a stable country.
    I think back to my, even in Omaha, University of Nebraska 
at Omaha, where Tom Gouttierre at the Afghan Studies Program at 
UNO has been there for 45 years, working with--in fact, 
President Ghani mentioned when we first met him that he had 
known Tom Gouttierre, Dr. Gouttierre, since he was 17 years 
old. So there has been this incredible commitment by the 
military, obviously, and yourself and your team, and lots of 
other people who have made this commitment.
    Here is my question really, and you have probably answered 
most of it. But number one is there is a big difference in my 
mind between a sunset, saying we are going to be gone in a 
year, we are going to go to some number in a year, and what you 
are talking about today, which is a 5-year vision. To me, 
hearing you talk about a 5-year vision is a very refreshing 
thing. We were just at NATO on our way back from the Gulf 
States and talking about the Warsaw conference and the need for 
a 5-year vision in Afghanistan.
    What in your view would be those elements, many of which 
you have already talked about and worked on, that would be in a 
5-year vision? What would you see a 5-year vision entailing in 
an optimum sense?
    General Campbell. Sir, again, you know, I talk usually just 
from the security perspective. And we would work on different 
areas on the Afghan security forces to build upon the areas 
that we knew they would have issues with, that would take years 
to build on, intelligence, close air support, those kinds of 
things we have talked about in the past.
    But I think a 5-year vision really from NATO, the U.S., 
everybody working together, is not just the security piece. It 
involves a political dimension, an economic dimension. And I 
think NATO is behind that. I believe we are working toward that 
as well. President Ghani wants to continue to push that.
    So President Ghani, Dr. Abdullah, President Obama do 
periodic video teleconferences. I have been honored to have the 
opportunity to sit in those with the President. He has done 
several of those in the last 18 months. They continue to talk 
through what they need to do as they go forward. I think those 
have been very helpful.
    And with President Ghani, you have a commander in chief. 
And a lot of things that he does, again, different from 
previous folks that were there, is try to model a lot what he 
has learned based on what he sees from the United States. He 
considers us a foundational partner. And I think we have got to 
continue to provide the ability to stay with him. He 
understands that. He is not going to try to do anything that 
would get in the way to do that. He is getting after all the 
things we wanted him to get after, corruption, work in gender 
integration issues, building civilian leadership, building 
military leadership. I think all of those would go inside of 
the plan as we go forward.
    Mr. Ashford. And I think it is exceptional what you have 
been able to accomplish, General, quite frankly, because those 
are the elements that we talked about a year ago. And there 
certainly are challenges with Daesh and others, other elements 
here. But every one of those elements were challenges that 
President Ghani talked to us about. And you have been able, 
working with him and your team working with his team, to 
advance the ball quite a bit, in my view.
    I mean, all I can do is look at what I saw then when 
President Ghani first got there and now. And, yeah, there are 
challenges clearly, obviously. But there are significant 
strides that have been made. And going down the checklist and 
even expanding it beyond that, just issues involving--I know 
President Ghani talked about attitudes towards women and I 
think that has clearly been an issue for him. And all those 
things that were on the table, needed to be addressed 1 year 
ago are being addressed in a very positive fashion.
    So thank you.
    General Campbell. Sir, I have had a lot of help. It is not 
about me here. Thanks, sir.
    Mr. Ashford. I yield back. Thanks, Mr. Chairman.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Thank you, General Campbell. It is great to see you again. 
I had the opportunity to visit with you in November on a 
congressional delegation. I was able to visit with soldiers 
that I represent in the 10th Mountain Division at Fort Drum.
    I wanted to talk to you about in your testimony today you 
discussed the fact that terrorist organizations are no longer 
siloed, that it is much of a terrorist network. To what extent 
is IS-KP [Islamic State-Khorasan Province] recruiting current 
and former members of the Taliban? In your testimony a couple 
months ago, you assessed that IS-KP was evolving from nascent 
to operationally emergent. How would you describe that progress 
today? And how does that impact the security conditions on the 
ground.
    General Campbell. Ma'am, thanks for the visit. Thanks for 
the great 10th Mountain Division that continues to remain there 
today.
    You know, Daesh, IS-KP continues to recruit and really 
started from an Afghanistan--disenfranchised members of the TTP 
or the Pakistani Taliban. That was really the core. And the 
senior leadership of IS-KP continues to come from TTP. They 
have gained other members of the Taliban that may have become--
that see the success that happened in Syria and Iraq. They see 
more money. So they want to join something like that. They have 
been able to use that to their benefit, using social media to 
recruit.
    President Ghani, I said in the past, talked about Al Qaeda 
being Windows 1.0 and Daesh being, you know, Windows 7.0 when 
it comes to social recruiting. It has made a difference on the 
battlefield. They have continued to grow. February-March 
timeframe, I did say nascent. Operationally emergent is what I 
said back in October. They continue to be about the same place. 
I don't think they have the ability today to attack Europe, to 
attack the homeland. I think if left unchecked they would have 
that ability. They have expressed that they want to attack 
Americans, that they want to attack the homeland. And so 
everything that we can do to make sure they can't do that, you 
know, we will get after that.
    The ability to go after ISIL, as we have done in the last 
week and a half or so, I think has made a significant impact on 
their leadership and on their ability to continue to form, in 
Nangarhar particularly, Achin and Dih Bala districts of 
Nangarhar, and we will continue to work that piece of it.
    Taliban and Daesh fight each other or have fought each 
other. It has caused the Taliban to move resources, as I 
mentioned in the opening statement, away from other areas to 
fight ISIL in Nangarhar, and that has an impact on the 
battlefield.
    But let's make no doubt about it, they have expressed 
desire to attack the United States, to kill Americans, to 
attack Europe. They want to do what has happened in Syria and 
Iraq and gain ground in Afghanistan. They want to take over 
Jalalabad, build in the Kunar Province, to establish the 
Khorasan Province, which is Afghanistan, part of Pakistan, 
central South Asia. So there is no doubt they want to do that 
and they are going to continue to work toward that.
    It is very hard, I think, as we move forward to see the 
difference between the networks out there of all the 
terrorists. Many of them provide different types of support to 
each other in many of the ungoverned areas, both in Pakistan 
and Afghanistan. And I think Pakistan has done a lot of stuff 
in the last year very courageously from General Raheel, the 
chief of army, to have PAKMIL [Pakistan military] operations in 
Pakistan. But the result of that has driven a lot of that into 
Afghanistan and the Afghan forces have had to deal with that as 
well.
    So we will continue to stay after this. But ISIL, you know, 
we have to continue, IS-KP, Daesh, we have to continue to keep 
pressure on them or it will grow to where we do not want it to 
be.
    Ms. Stefanik. Thank you for that answer.
    I want to shift gears here to, you noted three 
capabilities, logistics, intelligence, and close air support, 
that the Afghan security forces need to further develop. Can 
you specifically discuss metrics in 2016 that you are looking 
for to see improvements? You know, what specifically are you 
looking for in those three capabilities areas?
    General Campbell. Simple things, like in the logistics 
realm, you know, every day the Afghans ask me for more of this, 
more of that, certain leadership down at lower levels. And they 
have the equipment. They have the ammunition. It is a matter of 
leadership. It is a matter of supply distribution. So we are 
taking a holistic look at their entire supply system on how we 
can make it easier for them to be able to provide the right 
logistic support for all their forces.
    Sometimes what we do is we go into a place and we make it 
too hard, we impose our systems and processes, and we find out 
that they are just not capable of having that same type of 
system, so we have to adjust. Not everybody in Afghanistan can 
read or write. Not everybody in Afghanistan has the ability to 
get on a computer and have all their logistic supplies and move 
of their logistic supplies based on the network that we have 
here in the United States.
    So we have to adjust. And what I tell our advisers all the 
time is keep it simple, you know, do everything we can to keep 
it simple. So in many areas that we thought we were doing a 
good job, we have to go back and ask ourselves, you know, was 
that the right way to do it. Logistics is a hard area, but I 
think simple things like taking logistics from point A, getting 
it to point B, getting it to people on the ground is a pretty 
simplistic measure, but that is one we are looking at.
    And close air support, it is really about gaining the 
ability to fly both day and night. We have got to continue to 
work in 2016, getting them to fly at night is going to be very, 
very important as we go forward.
    In the intelligence place, I think, in the intelligence 
arena, having them continue to build upon MOD, MOI, NDS 
[National Directorate of Security], their intel agency, working 
together to take a look from the strategic level all the way 
down to the tactical level, I think will make a big difference. 
They formed a fusion cell earlier this year that they have 
never had, intel fusion cell at the strategic level, and that 
is starting to make a difference now as it takes strategic 
intelligence from all the different agencies and pumps that out 
to the special operating forces so they can prosecute the 
target. And that is making a difference.
    Ms. Stefanik. I am over my time. I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    General, first I just want to join Mr. Gibson and so many 
others who have thanked you for your service. There are very 
few people who have to make daily life-and-death decisions and 
are fundamentally, in a very direct way, responsible for the 
survival and success of our Nation's most precious assets, the 
young Americans who fight on the front lines. Certainly none of 
us on this side of the room have that direct responsibility 
that you do. And I can say that you will be missed.
    I want to go back to a comment you made about making sure 
that 2016 is not a rerun of 2015. My personal concern is that, 
even more broadly, that 2016 or 2017 or 2018 becomes a rerun of 
the 2010 to 2013 period we saw in Iraq where things really fell 
apart. And I think of that game that you sometimes see in bars 
where there is--it is called Jenga--and there is a pile of 
sticks. And what happened in Iraq is we had this nice pile that 
we had constructed at the cost of a lot of time and a lot of 
American lives, and the enemies of Iraq and America were 
steadily pulling out one stick at a time. And we were standing 
far enough back that we could still say, ``Look, it looks like 
a great tower, in fact, it is even getting a little bit 
higher,'' as they pull a stick out and put it back on top. But 
at some point the whole thing collapsed.
    And my concern is that there is a lot of evidence out 
there, despite the admirable progress that you have made, that 
things in Afghanistan aren't getting better, in fact they might 
be getting a little bit worse. I am concerned that the 
differences that you described between Iraq and Afghanistan 
aren't really so stark. There are an awful lot of Iraqi leaders 
who wanted us to stay in the country. There was just one guy at 
the top who did not. That is a very analogous situation to the 
problem we had with Karzai, and if President Ghani is not there 
in the future, we could see that problem again.
    There is a lot of sectarianism in Iraq. I also knew army 
units that were very nonsectarian and were very committed to 
the national unity government.
    There are also stories, tremendous stories of Iraqi Army 
success, despite the well-publicized failures. And, indeed, the 
same is true in Afghanistan.
    But what happened in Iraq is not that Daesh came in and 
just overran the Iraqi Army. The Iraqi Army put their weapons 
down and went home because they had lost faith in their 
government, because when they looked at that tower, it had 
collapsed.
    Now, you mentioned in Afghanistan today that it is not just 
our troops on the front lines, but these advisers in the 
ministries, the people who are working on Afghan governance, to 
make sure that that doesn't happen in Afghanistan. But if you 
look at the progress with the Afghan Government, we have gone 
from approval ratings in the 70s to a recent survey that had 
approval ratings in the 6 to 8 percent range. So I am very 
concerned that we are going to see a repeat of Iraq 2010 to 
2013 in Afghanistan over the next 3 years.
    So what do we need to do differently? If you came and 
testified to us that everything was just fine and we were 
maintaining the status quo, that it seems like a good response 
to that would be to keep our forces at the same level. And yet 
the two choices on the table are keeping them at the same level 
or reducing them when it seems like in many measures, in many 
ways things are actually getting worse.
    So what do you think that we need to do differently so that 
we can make positive forward progress, not just on the military 
front, but on the political front with the Afghan Government, 
so we don't see things sliding back, more sticks being pulled 
out, and someday we just see the tower collapse?
    General Campbell. Sir, thanks for the question. Again, I 
spend a lot of time with President Ghani, Dr. Abdullah, as does 
Ambassador McKinley from the embassy. We have a great 
partnership together. I am honored to work with him. I know 
that he and I have spent a lot of time together going after the 
exact question you talked about, talking to President Ghani 
about things that he could do to help manage better inside the 
government, working with Dr. Abdullah.
    They both understand how important it is to keep the 
national unity government together. I do believe that they both 
want to continue to keep the national unity government 
together, despite all the other distractors around them, 
despite the, for lack of a better term, the opposition groups 
that are starting to form that want to take away President 
Ghani or take away Dr. Abdullah. A lot of that, quite frankly, 
is so politically based on constituencies and because certain 
groups haven't been given a ministerial job or a governorship 
or something like that.
    Mr. Moulton. General, I am almost out of time. But if you 
could continue on the record what we in the United States could 
be doing differently to improve the situation, to make sure 
that the progress we make is greater than the progress we have 
seen over the past year, I would very much appreciate it.
    General Campbell. Absolutely.
    [The information was not available at the time of 
printing.]
    Mr. Moulton. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    General, thank you. I will echo what the others have said, 
I thank you for your service. I don't know that most people in 
the country truly understand what you have done and what many 
others like you have done to serve this country, and it is 
appreciated.
    You mentioned in here that you recently gained the 
authority to strike at Daesh. What were you doing before that? 
When they were on the move or a threat, how did you handle 
that?
    General Campbell. Sir, if they were a threat and we knew 
they were a threat to attacking the coalition, then I would 
have the ability to provide that force protection. I would 
strike them.
    Dr. Wenstrup. But only in a defensive posture or----
    General Campbell. Only if I knew they were going to attack 
the coalition, yes, sir.
    Dr. Wenstrup. You mentioned the capability gap that exists 
today, the deficiencies that you see, where they need our help. 
What do you see as a timeframe for those capabilities being 
fulfilled? I mean, are we talking 20 years? You mentioned 240 
years for us and 8 years for them is a big difference, right? 
So do you see them trending towards that and having that 
capability, those capabilities some day?
    General Campbell. Sir, I think every area is different. But 
I will take aviation because it is easy to look at, I think. We 
won't even get the last aircraft that we are working toward 
till probably the 2018 timeframe. So we are talking 2, 3 more 
years just to get that aircraft. And in that timeframe, many of 
the aircraft could have issues with maintenance, could have 
battle damage, and on and on and on. But the human capital of 
building their pilots for years and years, you know, you have 
got to start that now and make sure they realize if you recruit 
a guy now, you are not going to see him for another 3 years 
before he can be a pilot. So aviation is the area that is going 
to take a long time, several years, to get them to where they 
were used to.
    When we went out as a force, we showed them we would never 
go out unless we had ISR [intelligence, surveillance, and 
reconnaissance], unless we had attack helicopters, all the 
enablers out there. Yet, as they took over the country, they 
didn't have all of those enablers, all of that support. So we 
are working through that to build that support for them. But, 
again, the Taliban doesn't have a lot of that either, and we 
have got to make sure that they don't look at the Taliban as 10 
feet tall, as I talked about in the opening statement.
    Dr. Wenstrup. So is that the capability that you think will 
take the longest, is aviation?
    General Campbell. I think aviation is probably the area 
that will take the longest, yes, sir.
    Dr. Wenstrup. Okay.
    Thank you. I yield back.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General, thank you for your testimony, for your service, 
and for hosting so many of us who have visited you and the 
service members who serve under you in Afghanistan.
    The primary goal, as I understand it, in terms of our 
efforts in Afghanistan is to prevent that country from ever 
again becoming a place from which terrorists or those who would 
do us harm could launch attacks against the United States. That 
makes a lot of sense to me. And, again, I thank you and those 
who serve under you for your success to date.
    The secondary goals are harder for me to follow. You 
mentioned in kind of a negative way what one of the goals is 
not. It is not to perpetuate a stalemate. You don't want to see 
that continue. And, yet, I am unclear at this point as to what 
we will do to prevent that from happening, this indefinite 
stalemate, and what we are willing to do to help the 
Afghanistan national government should it fail to prevail 
against the Taliban.
    My understanding is we are not at war today with the 
Taliban. And my understanding is that we have a train, advise, 
and assist function. We don't have an active combat function 
against the Taliban.
    You have made a great case as to why we might want to 
understand the Afghan National Army's performance in the 
perspective of only having been stood up for the last 7 years 
and that there will need to be some ongoing U.S. commitment.
    Do you have any thoughts about what we, as policymakers, 
should be willing to commit to should the Afghan National Army 
not succeed in holding back Taliban advances, whether they are 
in Kandahar, Kunduz, or elsewhere in the country?
    General Campbell. Sir, you are absolutely right, I have two 
sort of narrow missions, counterterrorism under my U.S. hat and 
the train, advise, and assist under my U.S. and my NATO hat. 
And I do believe that we have to continue to build upon the 
Afghan capabilities to get after CT, which they want to do, and 
the train, advise, and assist is a very important piece to 
build their capability.
    I think as we go forward what Congress can do is what you 
have done for the last 14, 15 years, is to continue to support 
the campaign by approving the money, by approving the ability 
to bring our great men and women over to Afghanistan, by 
providing the equipment, by providing the support that way. 
That has made a huge difference, and we have always had that 
continued support. And we shouldn't let that go unnoticed.
    But I do think that, you know, I go back to this is a 
generational struggle, and too many times we think that we can 
get this done very, very quickly. And I am going to tell you, 
and most of your military commanders would tell you, that we 
have to have some strategic patience, and we have to have the 
ability to always assess where we are going.
    And, you know, in the military we do lessons learned all 
the time and try to learn from those, and I have done that 
based on the last fighting season. And I think there are some 
adjustments we have to make sure that I have proposed to the 
senior leadership that will move forward, and then make some 
decisions.
    And I think for continued modest investment in Afghanistan, 
the second- and third-order impact of not having another 9/11 
is a pretty big deal, or to be able to provide the Afghan force 
to continue to grow, yes, sir.
    Mr. O'Rourke. I think we are in a tough place. I know 
someone else asked about conditionality, about setting 
benchmarks that the Afghanistan national government has to meet 
in order for us to continue or increase support because of that 
primary mission. We will never allow Afghanistan again to 
become the launching pad for attacks against the United States. 
The Afghanistan national government knows that.
    So it is very hard for us to follow through on that implied 
threat that if you do not do the following things--leading in 
the fight, reforming in your government--we will not be there 
for you. We are going to be there to ensure that we do not have 
that threat again.
    So my question really goes back to what should we as 
policymakers, what should the American public set our 
expectations be ready to do if the modest changes, perhaps some 
modest increases in funding don't get the job done and we see 
another significant city fall even temporarily to the Taliban 
or for a longer period of time? Should we be thinking about 
potentially going to war again against the Taliban or is there 
some other strategy if the current status quo with some 
refinement doesn't work?
    I realize I am out of time, Mr. Chairman, so I may have to 
take that for the record.
    General Campbell. Sir, I will take it for the record.
    [The information was not available at the time of 
printing.]
    General Campbell. But one thing I talked about up front is 
we are not going to kill our way out of this. There has to be 
some form of political settlement, reconciliation. The Afghans 
want to go that way. President Ghani is leading that effort. 
And I think all the countries around--I talked about Pakistan, 
China, United States--supporting that effort. And that is a way 
that we have to continue to move forward.
    Mr. O'Rourke. Thank you.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    And I want to echo what many of my colleagues have said and 
thank you so much for your service. It was also great to visit 
you back in May, see the incredible leadership that you are 
providing, and you definitely will be missed.
    As we talk about the strategy that we have had for maybe 
the last several years of ramping up ANSF capability and 
ramping down our capability, it seems that has happened on the 
ground, but you have clearly stated and it is very obvious that 
that didn't happen with the air capabilities.
    So for whatever reason decisions were made that we were 
basically going to pull back on our air power capabilities, to 
include those you mentioned, whether that is air strikes and 
using air power on its own or close air support and ISR before 
they had the capability ramped up, and that is creating the 
huge gap that you mentioned in your testimony today.
    So I know you are not in a position to decide on that, but 
let's just imagine, should a decision be changed, that we would 
again provide American or coalition, NATO air power for air 
strikes against the enemy, which you have laid out the networks 
of the enemy, and close air support to our supporting coalition 
partners on the ground, like we did after 9/11 and like we are 
doing in other places in the world, what would that do to 
change the dynamics, to create the space so there could be a 
political solution and the ANSF could continue to grow their 
capability?
    General Campbell. Ma'am, great question. I think what we 
are trying to do is mitigate on the ground how we can work 
toward that by providing them other ways to get after that same 
problem set.
    Ms. McSally. But let's say tomorrow we gave you a couple 
more squadrons, a strike aircraft, and the authority to be able 
to actually strike, provide close air support, ISR, like this, 
what would that do?
    General Campbell. I think what you meant is A-10s, that you 
would give me 24 A-10s.
    Ms. McSally. Of course.
    General Campbell. Yes, ma'am. We would have to really work 
through TTPs to make sure that we can--as you know, it is very 
hard unless you have people on the ground to be able to provide 
precise direction to hit that target you are going to hit. So 
we would have to really work through the techniques, tactics, 
and procedures that we would use. And sometimes, in some cases, 
that may take more resources of people, in some areas as you 
train the Afghans to be able to do that, to interact, you could 
reduce that threat.
    So, I mean, we are looking hard at that. We do continue to 
provide train, advise, assist at the tactical level with the 
special operating forces. We are trying to build and we are 
building their JTAC [Joint Terminal Attack Controllers] 
capability on the special operations side. We are trying to 
build their JTAC capability on the conventional side as well. 
Not only to interact with their close air support platforms, 
but if needed to understand other nations that could provide 
support.
    Ms. McSally. Great. Thanks.
    Similarly, you talked about the network of the different 
terrorist organizations and how they are intertwined and the 
challenges with authority. So, again, let's just say tomorrow 
there was a decision that you now have the authority, we still 
have the PID [positive identification] and the CDE [collateral 
damage estimate] requirements, but you had the authority to 
strike any of those networks assuming you met those other 
criteria, what would that do to change the situation on the 
ground and strategically?
    General Campbell. I would have to make that call based on 
resources, based on a particular target as we go forward. We 
were able to get the ISIL/Daesh authority and not take any more 
resources, but at the same time continue to degrade that 
network. We would have to take a hard look at how we would do 
that to other networks if we have a change in authority. Again, 
some we would have to probably ask for additional resources, in 
other areas we would not.
    The one resource that I didn't bring up in another question 
asked earlier is ISR. Every combatant commander, every 
commander on the ground has an insatiable appetite for ISR, and 
we have the same thing in Afghanistan. And we are building the 
Afghan capability this year to have their own full motion video 
in a ScanEagle ISR platform. So that is going to be really good 
as they get that.
    Ms. McSally. Okay. Great.
    Last question. We are at 9,800 right now, again, that has 
just been directed, with the direction from the administration 
to ramp down to 5,500 for 2017, but it is also supposed to be 
conditions based. And we also have an election going on. We are 
going to have a new Commander in Chief in January. Just 
picturing trying to redeploy squadrons that potentially with a 
new Commander in Chief there could be a change in that 
direction. We could be ramping up additional resources in order 
to address the strategic long haul that we need to have there.
    Imagining the sort of short-term redeployment and then 
deployment back again, wouldn't it make more sense to just kind 
of stabilize where we are and let the next Commander in Chief 
make their assessment as opposed to ramping down and then 
potentially a change in direction, just from an efficiencies 
point of view, of the units that would be involved in 
redeployment?
    General Campbell. If there was a decision to go from 5,500 
back up to whatever number next year sometime, absolutely, if 
you are already on the ground, you have the equipment. I think 
that the decision in October this past year that President 
Obama made, again, I talked in terms of not necessarily the 
numbers, but the capabilities. But more that I welcomed there 
was the bases, so Bagram, Jalalabad, Kandahar, it gave us the 
opportunity to provide flexibility and options for future 
leadership.
    Ms. McSally. Great. Thanks. Thanks for your service again.
    I yield back.
    The Chairman. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    And, General Campbell, I wanted to ask you specifically 
about the ANA Trust Fund. And how far into the future do you 
see the U.S. investing in the Trust Fund and to what level? I 
wanted to ask, like, do you see it gradually going down over a 
certain amount of time or do you think that, as far as us being 
committed to this fight, to make sure that we have some sort of 
stability in Afghanistan, that there will be a certain level of 
stability in the funding?
    General Campbell. Sir, I think for all of the different 
funding streams that come into Afghanistan, whether it is the 
ANA Trust Fund, LOFTA [Law and Order Trust Fund of 
Afghanistan], pure U.S. money that we provide, that all of 
those we are looking to bring them down over time. We have to 
make the Afghan security forces more affordable, more 
efficient, and more sustainable, and we continue to look at 
ways we can do that.
    So I see all the money sources coming in, all the donor 
nations continue to want to try to bring that down. I think 
over time, at least 2017, 2018, 2019, and 2020, as we move 
toward Warsaw, we want to keep it at the funding levels that we 
are about right now.
    Mr. Veasey. And my last question that I wanted to ask you 
was about the drawdown. As it was stated earlier by my 
colleague, that the drawdown by the end of 2016 will go to 
about 5,500 military personnel. And I wanted to ask you about 
the placement. Do you still anticipate placing a presence in 
the south and east of Afghanistan?
    General Campbell. Sir, currently we have forces in the east 
and the south, and under the 5,500 we will continue to have 
forces in the east and south, yes, sir.
    Mr. Veasey. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    General Campbell, thanks for your decades of defense to our 
Republic and doing the hardest things that our Nation asks. And 
also thank you for your perseverance when we inadvertently 
obstruct it.
    I would like to give a quote from some opponents of the 
American efforts in the war: ``We have got into a mess, a 
quagmire from which each step renders the difficulty of 
extraction immediately greater. I am sure I wish I could see 
what we were getting out of it.''
    The quote was from 1900, October 6. American efforts in the 
Philippines, 14 years, 4,500 dead, 20,000 wounded. This body 
repeatedly asked military leaders: Why are we there? What are 
we doing? What is the point? And yet, at the end of that, 
another three decades of commitment where we were willing to 
build their infrastructure, help their people, grant them the 
means to have independence.
    And although the 1944 date of complete independence was 
interrupted by World War II--it was restored 2 years after the 
end of the war--they became a crucial ally that became a vital 
strategic projection platform in all of our efforts in the 
Pacific. And today they are a top 50 economy that provides much 
of our clothing and furniture in the United States.
    Hard to see, hard for these opposers to see that, and yet 
it was the commitment of American service personnel that made 
it happen.
    I sit here somewhat amused as a veteran of Iraq and 
Afghanistan listening to much of the discussion, the debate 
about Afghan security forces and their ability to control most 
of the nation. My efforts with the Afghan security forces was 
zero, when we worked with 2 PARA and 3rd Special Forces in the 
spring of 2002 to create a vision and an effort that would get 
us there, from being a delegate at an Afghan security 
conference and getting commitments from partner nations around 
the world, so that we could see this day where we were having 
debates about, well, they don't use communication very well and 
they don't have their logistics down. What a great problem to 
have. And thank you, sir, for your efforts in continuing that 
and making so much of that happen.
    My colleagues asked questions about the expense of it. And 
yet I ask the question, how much is a failed state worth? 
Section 60 in Arlington, where many of my friends are buried, 
and yours, what about their commitment, not their politics? 
Abandonment in Iraq was far more costly than had we remained 
committed there. We created a situation where, where we failed 
to lead, tyrants and regional destabilizers filled the void, 
millions have been displaced, ISIS has ascended, and human 
suffering on a barbaric scale has been reintroduced to mankind.
    So I guess my question to you would be, 25 years from now, 
what would, in your estimation, Afghanistan and the region look 
like with our partnership and what would it look like with our 
abandonment?
    General Campbell. Sir, I think with our continued 
partnership and long-term commitment 25 years from now I can 
take my family to Afghanistan and visit all those places that 
some of the members have talked about that they would look to 
go see, Bamyan and the mountains of the Hindu Kush and on and 
on; that they would have a government that is for the people; 
they would have the Afghan people working; all the boys and 
girls who wanted to go to school could go to school; on and on.
    They have that same vision that everybody here in the U.S. 
wants for their men and women, and that will happen if we have 
a long-term commitment, as you talked about. And if we don't 
continue to provide the space and time for them to grow that 
ability to sustain both their economy and their national 
security, they won't get to that.
    So I am personally invested in Afghanistan. My family is, 
the men and women I have been surrounded with the last 14 
years. And I do think our definition of time and their 
definition of time are two different things, as you have 
pointed out. We have to stay for the long haul here.
    Mr. Russell. Thank you, General Campbell.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Graham.
    Ms. Graham. Thank you, Mr. Chairman.
    Thank you, General. Unfortunately I haven't had as long of 
an opportunity to work with you, but I have heard such amazing 
things about your service. So I want to add to that chorus.
    My question sort of is a natural segue from your last 
answer. There was an article in The Washington Post today that 
talks about the deteriorating humanitarian conditions in Iraq. 
We often find that when the people are struggling, it increases 
the radicalism in a country. So I am wondering what do you see 
on the ground in terms of the humanitarian condition of the 
people in Afghanistan?
    General Campbell. Ma'am, again, I think what the people of 
Afghanistan want is governance for the district level. It is 
very, very tough for them to do that in many of the remote 
areas. They expect that the national unity government will 
provide that. They are working very hard to put into place the 
right leadership at the district level, the members of 
Parliament to work through that.
    I think they are all concerned with the humanitarian 
aspects of that. All of the ambassadors from all the different 
countries get together periodically to talk with the Afghan 
leadership on ways that they can move forward on getting after 
humanitarian issues there.
    So I think there is good dialogue and you have to be 
talking about that as you move forward. And so I see continued 
progress, although slow. But I think as we continue to talk and 
make the Afghans aware of the issues that are out there, they 
want to try to make changes to build upon those efforts. So I 
think we will continue to see growth in that area.
    Ms. Graham. I often talk about this because I think this 
really is key to moving towards a place of peace across our 
world, which is getting to the youth across our world, about 
wanting peace and wanting to find a way where we can find a way 
to stop all of these wars and conflicts.
    What do you see with the youth in Afghanistan? And is there 
a social media presence in Afghanistan? And are we doing any 
soft power programs to try to encourage the youth for a 
brighter future?
    General Campbell. Yes, ma'am. Thank you for the question.
    I think the future of Afghanistan or the hope of 
Afghanistan is the youth of the country. I meet periodically, 
trimonthly with an Afghan advisory board. I bring in different 
segments of the society, both male and female, publicists, 
economists, members of Parliament, on and on. And most of them 
are younger. And I could go into that meeting very frustrated 
about other things that have happened throughout my day 
earlier, when I come out of that meeting I am always inspired 
because of the young people. They understand the problems and 
they have only known for the last 37, 38 years war. And so they 
want to have a better life.
    They do have the ability, because of freedom of the press, 
which is getting attacked by the Taliban, which happened last 
week, but they do have the ability to see TV, to listen to 
radio, they do have Facebook and Twitter and all those kind of 
things, in more of the built-up areas as opposed to out in the 
rural areas. But they see that there are other things out there 
and they want to have the ability to have those opportunities 
as well.
    So I think the youth, based on the number that want to go 
to school, the number that want to better their lives, I think 
that is the future. And I see that in the army and the police 
as well with the young captains and majors and sergeants that 
have come back to the United States for training and now go 
back and bring that education back with them. We have to 
continue to get them in the right places of leadership so we 
can build upon what they have learned, and they seek that out.
    Ms. Graham. Well, I see the same thing here in this 
country, it is the youth that gives me such hope and optimism 
about our future. So it is good to know that the Afghanistan 
youth and the American youth share that in common.
    I don't know if it is possible. Do we have a program where 
the American youth are reaching out to Afghanistan youth and 
back and forth so they can build those friendships and 
relationships and trust and caring, where there is the mutual 
desire to stop the wars and have a better future for us all?
    General Campbell. Ma'am, I know there are a lot of 
different organizations from a lot of the countries, and the 
U.S. included, that reach out to Afghanistan and particularly 
focus on the youth. I can come back to you with a better answer 
and give you some of those organizations.
    [The information was not available at the time of 
printing.]
    General Campbell. I saw in the audience, she may have left, 
Bonnie Carroll here who runs TAPS, Tragedy Assistance Program 
[for Survivors] here in the United States. I saw her in 
Afghanistan a couple weeks ago, just reaching out to the 
orphans and the children of the martyrs, of the folks that have 
been killed or wounded in Afghanistan. Bonnie has done 
incredible work for all of our services.
    Thank you, Bonnie.
    And she is taking that to Afghanistan now. It just gave me 
goose bumps to say that there.
    Ms. Graham. It gave me goose bumps too.
    Thank you, Bonnie.
    Thank you, General.
    I yield back.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General, thank you for being here today. In the Pentagon's 
``Enhancing Security and Stability in Afghanistan'' report it 
says that given the ANDSF's [Afghan National Defense and 
Security Forces] current stage of development, they can't 
manage the insurgency and ensure security and stability across 
Afghanistan without further improvements in key enabling 
capabilities.
    During your October 2015 testimony you were very harsh on 
the capacity and readiness of the ANDSF conventional units, and 
you and I actually talked briefly about some of the root causes 
of their ineffectiveness. As you recall, you cited a lack of 
tactical level train, advise, and assist, TAA mentors as one 
reason for their failures, and you contrasted that with what 
the Afghan special forces had, who do have advisers down at the 
tactical level.
    Now, we have been deployed to Afghanistan for a long time 
and there is really almost no end in sight. Ideally, we could 
just bring everyone home, but reading the latest security 
assessments I know that is not a reality. However, I do want to 
have an honest conversation about the exact level of commitment 
that we are talking about. I want to know the full extent of 
what it would take to conduct a proper TAA mission so that the 
ANDSF can get on the right trajectory and, more importantly, so 
the American people have a clear understanding of what we are 
doing here and how many troops it will take.
    Given the current troop levels, are we able to effectively 
align our advisers at the appropriate echelons within the ANDSF 
to where we would see a difference in their capability? And how 
many troops would be required in order to better align our 
advisers with the ANDSF to where they would be most impactful, 
where we could actually start to see more long-term positive 
trends?
    General Campbell. Thank you for the question, ma'am. And, 
again, two mission sets that I focus on, train, advise, and 
assist at the ministry, at the corps level, and tactical at the 
special operating forces; and then the counterterrorism mission 
under U.S. hat to build their capacity. And I think each one of 
those you have to kind of break those out in bins as you work 
toward that. And we made a decision a while back to continue to 
build their capability but at the same time have a glide slope 
to bring our forces off as we raise their capability. And 
instances it depends upon the unit that has had that level of 
training and the right leadership that is put in place, be able 
to have that training sustained and move out.
    There are places in Afghanistan, like the 203rd Corps, 
where we came off at the corps level and through the fighting 
season 2015 they continued to do pretty good. And I would only 
put expeditionary advising down there very sporadically, and 
they continue to operate. There are places like Helmand with 
the 215th where we didn't have advisers at the corps level and 
they didn't do as well, and I have had to move more advisers 
down there now to build that the capacity up to get ready for 
the next fighting season.
    So some of it really for me goes back to leadership and 
have the right leadership in place as opposed to the numbers of 
advisers, because we see it differently throughout the country 
of Afghanistan. But where they do have the right leadership and 
we do focus and build on those capabilities they continue to 
get better and better.
    I think I have to be realistic in understanding the 
different resources out there and what we need throughout not 
only Afghanistan, but in Europe and Africa, the Pacific. And 
there is a limited number and finite number of resources.
    I fight every day to have ISR, and I am very fortunate to 
have General Austin at CENTCOM work with me on ISR. He 
continues to have the fight against ISIL in Iraq and Syria and 
I have that fight in Afghanistan. I work with him to make sure 
we have the right resources, and he has given me everything 
that I have asked for. But I know that for him it is a 
continuous struggle because he has a limited number of 
resources. So I take that into consideration as we look forward 
in Afghanistan.
    And I think, again, we are doing an assessment now, I have 
made an assessment on things that we could do in 2016 to make a 
difference so it is not like 2015. And, realistically, the 
thing that I can make a difference on is authorities as we go 
forward, and that is in the process now of working some of 
those.
    And then in 2017 we have already committed to keeping--
again, as I said in my opening statement, 18 months ago we were 
going to be at 1,000, only in Kabul. Now we are at 5,500, in 
many places, yet we are still talking about we need more and 
more. So I have to take a look at what we do have and where we 
are going to make the biggest bang for the buck for the 
resources we have and I will provide all of that to my 
leadership as we go forward.
    But I think every commander has a continual assessment as 
we go down. And it is not a simple, you know, I need X amount 
of people. You can have the forces, but if you don't have the 
authorities it doesn't make a difference. You can have the 
authorities, but if you don't have the resources to execute 
those authorities, it doesn't make a difference. So you have to 
have that balance as you move forward.
    Ms. Duckworth. Well, that is exactly what I wanted to touch 
on. As you are trying to put some more units at lower echelons, 
what do you see as assuming risk, given flat or even declining 
troop authorization levels? And how do you mitigate that risk? 
And what criteria must exist for you to recommend an increase 
in number of U.S. or NATO forces in Afghanistan? And I can take 
your answer.
    I know I am over time, Mr. Chairman.
    General Campbell. I will provide that to you for the 
record.
    [The information was not available at the time of 
printing.]
    Ms. Duckworth. Thank you.
    General Campbell. Thank you.
    The Chairman. General, one brief clarifying question. If 
nothing changes and your successor has to be at 5,500 by 
January 1, 2017, at what rough timeframe do things have to 
move, do decisions have to be made to get to that level?
    General Campbell. Sir, my leadership has left it up to me, 
and General Nicholson will have the ability to take a look at 
what I have recommended as we go from the 9,800 to the 5,500. 
Obviously, we would like to continue to keep the highest number 
during increased fighting in the summer, and then hold those 
forces, and then decrease after that, so after the September-
October timeframe you would have a short window of opportunity 
to bring that down.
    At some point, as I have talked before, it becomes a matter 
of physics on how you can move people in or out. But, again, we 
can do that I think very quickly, we have been doing that for 
years. Our logisticians are the best in the world, and I am 
very confident we will make those decisions.
    But as I talked about, sir, continue investment. I have to 
go back to leadership and say, based on the Afghans and what 
they have done, based on where we want to go, take a look at 
the risk to the force and the risk to the mission and here are 
some changes that we ought to make. And I think we are doing 
that now, and I will make sure that General Nicholson has the 
ability.
    On the NATO piece, we are trying to work that very quickly. 
If NATO is going to make a determination to change numbers, 
advisers, enablers, working through their process and would try 
to make those decisions before the summer, that would enable 
2017, just based on a force generation cycle that they have.
    The Chairman. Okay. Well, after 2\1/2\ hours I think that 
there is a lot of consensus in this room, a lot of consensus of 
respect and gratitude for you and your family; a recognition 
that the Afghans made a lot of progress with our help; and also 
a sense of unease about what the future holds depending on the 
decisions that are made there. But as I said at the beginning, 
I feel in a lot of ways you have been walking a tightrope and 
even in that difficult situation have done an extraordinary job 
in making sure that our security interests in Afghanistan have 
been protected.
    So thank you for today. And thank you for your service. And 
we all wish you the best.
    With that, the hearing stands adjourned.
    [Whereupon, at 12:29 p.m., the committee was adjourned.]


      
=======================================================================


                            A P P E N D I X

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 2, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 2, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. General Campbell, you recently stated that ``If we 
don't stay engaged here to build their capacity to fight this, keep 
sanctuaries down, its coming back to the homeland.'' Do you believe, 
with the existing restrictions on your targeting authorities and the 
upcoming reduction of 4,400 troops by the end of the year, that we will 
ultimately be able to achieve your aforementioned goals? Do you believe 
these reductions and restrictions could put us on a dangerous path that 
potentially threatens the homeland?
    [The answer is classified and retained in the committee files.]
    Mr. Wilson. In light of General John Nichoson's recent remarks that 
the Haqqani network is the ``number one threat to our forces in 
Afghanistan,'' would you recommend that the President allow U.S. forces 
to target Haqqani forces?
    [The answer is classified and retained in the committee files.]
    Mr. Wilson. What stress if any do you believe the proposed 
reduction of 4,300 troops places on the remaining Special Operation 
Forces? Do you believe they will be able to effectively continue 
unilateral counterterrorism efforts and train, advise, and assist 
missions?
    (This response is from the current Commander, US Forces-
Afghanistan, GEN Nicholson.) The President's decision to sustain U.S. 
Forces at 8,400 means we will retain our full counter-terrorism (CT) 
capability as well as being able to conduct TAA in the Afghan Air Force 
Corps and Police Zones of the East and South.
    Mr. Wilson. Could you please explain what constitutes a validated 
and non-validated al-Qaeda target and how involved this designation 
process is? Do you believe this designation process hinders your 
overall effectiveness?
    [The answer is classified and retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. On October 3rd, 2015, U.S. forces in Afghanistan 
fired on a Doctors Without Borders medical facility which they mistook 
for an Afghan government facility which was held by Taliban forces. A 
Department of Defense investigation found that a number of failures 
contributed to the tragedy, including malfunctioning communications 
gear, inaccurate fire control systems, and U.S. personnel ordering 
strikes they were not authorized to direct.
    a. What remedial action have you taken to ensure that similar 
process and command failures cannot happen under your successor, Lt. 
Gen. Nicholson?
    b. What have you learned personally from this tragedy and this 
investigation?
    (This response is from the current Commander, US Forces-
Afghanistan, GEN Nicholson.) a) GEN Campbell directed all U.S. 
personnel receive additional training on targeting authorities and 
rules of engagement. This training was completed on Nov. 5, 2015, and 
resulted in more than 9,000 people being retrained. He also directed 
that a holistic review take place at all echelons of command of the 
development, approval and execution of the Concept of Operations 
(CONOP) process, including the use of no strike lists. In addition, he 
directed that revisions take place regarding the tactical Standard 
Operating Procedures (SOP) and that the headquarters issue revised 
tactical guidance to subordinate units. He also directed that 
subordinate commands establish SOPs and procedures in the event that 
systems would fail to work properly during operations.
    b) This question is directed at GEN Campbell who is no longer in 
Afghanistan.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MOULTON
    Mr. Moulton. After the United States left Iraq, we witnessed the 
collapse of the Iraqi government and violence and instability in the 
region. Given this, what can we do differently in Afghanistan on both 
the political and military fronts to ensure we don't repeat the 
mistakes of Iraq and have the progress we have achieved slip away?
    (This response is from the current Commander, US Forces-
Afghanistan, GEN Nicholson.) a) The most effective way for us to secure 
the progress we have achieved in Afghanistan is through continued 
commitment towards the development of a capable and sustainable Afghan 
National Defense and Security Force (ANDSF) and establishment of a 
robust counterterrorism capability. These efforts, coupled with 
governance development led by the United States Embassy, are the 
cornerstone for a lasting peace and security in Afghanistan. Our 
commitment of US forces and finances, in addition to the support 
pledged by our Coalition partners, sends the signal to the government 
and people of Afghanistan that we are invested in their long-term 
security and stability. As we look to the future, Afghanistan can 
remain confident that the United States and Coalition partners will 
stand by their side, supporting their effort towards the long-term 
solution of reconciliation with the Taliban.
    b) The commitment of the NATO Alliance and Coalition Partners 
through 2020 which was affirmed at the Warsaw Summit sends a strong 
message to the Afghan people, and to our enemies, of our resolve. This 
bolsters the confidence of the ANDSF, the Afghan Government and the 
Afghan people which will help avoid a loss of the progress we have 
made.

                                  [all]
</pre></body></html>
